<html>
<title> - IDENTIFYING, RESOLVING, AND PREVENTING VULNERABILITIES IN TSA'S SECURITY OPERATIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      IDENTIFYING, RESOLVING, AND
        PREVENTING VULNERABILITIES IN TSA'S SECURITY OPERATIONS

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2019

                               __________

                           Serial No. 116-37

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


                  Available on: http://www.govinfo.gov
                     http://www.oversight.house.gov
                        http://www.docs.house.gov
                        
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-261 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0a0bf90b3a5a3a4b8b5bca0feb3bfbdfe">[email&#160;protected]</a>         





                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                    Lucinda Lessley, Policy Director
                    Courtney French, Senior Counsel
            Laura Rush, Deputy Chief Clerk/Security Manager

               Christopher Hixon, Minority Chief of Staff

                      Contact Number: 202-225-5051
                         
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
                                                                   
                                                                   
Hearing held on June 25, 2019....................................     1

                               Witnesses

Mr. Charles M. Johnson Jr., Managing Director, Homeland Security 
  and Justice Issues, Government Accountability Office
    Oral Statement...............................................     4
Mr. Donald Bumgardner, Deputy Assistant Inspector General, Office 
  of Inspector General, U.S. Department of Homeland Security
    Oral Statement...............................................     6
The Honorable David P. Pekoske, Administrator, Transportation 
  Security Administration, U.S. Department of Homeland Security
    Oral Statement...............................................     7

Witness' written statements are available at: https://
  docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents listed below are available at: https://
  docs.house.gov.

  * Letter from TSA; submitted by Chairman Cummings.

  * Rep. Connolloy Statement for the Record.

  * ``There Is No Excuse for Mistreating Children at the 
  Border,'' New York Times, June 24, 2019; submittd by Chairman 
  Cummings.


 
    IDENTIFYING, RESOLVING, AND PREVENTING VULNERABILITIES IN TSA'S 
                          SECURITY OPERATIONS

                              ----------                              


                         Tuesday, June 25, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2154, Rayburn Office Building, Hon. Elijah E. Cummings 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Maloney, Norton, Clay, 
Lynch, Connolly, Krishnamoorthi, Raskin, Wasserman Schultz, 
Sarbanes, Welch, Kelly, DeSaulnier, Plaskett, Khanna, Tlaib, 
Jordan, Massie, Meadows, Hice, Grothman, Comer, Gibbs, Higgins, 
Roy, Miller, Green, and Steube.
    Chairman Cummings. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    The full committee hearing is convening to identify, 
resolve, and prevent vulnerabilities on TSA's security 
operations.
    I now recognize myself for five minutes to give an opening 
statement.
    Today, nearly 20 years since the terrible attacks of 
September 11th, 2001, we are holding this hearing to examine 
why urgent warnings from independent auditors about the 
security vulnerabilities at the Transportation Security 
Administration have been languishing for years without being 
resolved.
    In 2016, I led a bipartisan group of Members in asking the 
Government Accountability Office to examine TSA's covert 
testing program. This past April, GAO issued the declassified 
results of its work. Unfortunately, GAO confirmed many of our 
worst fears.
    According to GAO, nine security vulnerabilities were 
identified through covert tests since 2015, and I quote, as of 
September 2018, none--none--had been formally resolved. End of 
quote. Not one over the past four years. GAO also found that 
TSA was--and I quote--not using a risk-informed approach--end 
of quote--to its covert tests. As a result, GAO warned that TSA 
has only limited assurance that it is, quote, targeting the 
most likely threats.
    Unfortunately, this is part of a larger trend. In addition 
to failing to implement GAO's recommendations, TSA has also 
failed to address warnings from the Inspector General. As of 
this month, 37 recommendations made by the Inspector General 
from 12 reports on aviation security remain open and 
unfulfilled. Several of those are also many years old.
    I want to thank Administrator Pekoske for being here, and I 
support some of the positive steps he is taking, but we need to 
know why these longstanding vulnerabilities are not being 
adequately addressed. I thank the witnesses from GAO and the 
Inspector General's office for being here and for keeping the 
focus squarely on these dangers to the flying public.
    Today, we will also examine why the Trump administration, 
instead of focusing all of their resources on trying to resolve 
these vulnerabilities, is actually aggravating them and further 
weakening aviation security by taking TSA staff out of our 
Nation's airports and diverting them to the southern border.
    Earlier this year, the Trump administration submitted its 
2020 budget request for TSA. In that request, the 
administration warned--and I quote--TSA continues to experience 
airline passenger volume growth at airport checkpoints 
nationwide. As a result, the Trump administration says it needs 
700 more screeners at TSA, and it is asking for more funding to 
hire these screeners.
    Yet, at the same time, the administration is diverting TSA 
employees away from their primary responsibilities and sending 
them to the southern border. We saw several press reports about 
this a few weeks ago, so the committee sent a letter to TSA to 
request the exact numbers and locations of the TSA officials 
who are being diverted.
    On Friday, TSA sent a response to the committee with new 
information showing the extent of these diversions. According 
to TSA, they have already diverted nearly 200 employees from 
airports and headquarters to the southern border, including 
Transportation Security officers, supervisors, and inspectors, 
as well as an additional 172 Federal air marshals. The 
employees are drawn from more than 50 airports across the 
country, ranging from small, regional airports to the largest, 
busiest airports in the Nation.
    But this is apparently just the beginning. According to the 
letter on Friday, TSA has already approved an additional 294 
employees to divert to the southern border.
    Let me put this quite starkly. On the one hand, TSA has 
dozens of security vulnerabilities that have languished for 
years, but the Trump administration is asking Congress for 700 
more TSA screeners to handle huge increases in air travel. Yet, 
on the other hand, the Trump administration is taking more than 
350 of these critical TSA employees, diverting them away from 
their primary responsibilities, that is, securing our Nation's 
airways, and sending them to the southern border. And more may 
be sent.
    The administration's actions are not helping aviation 
security. They are harming it. In fact, in their letter to the 
committee on Friday, TSA admitted that there is--and I quote--a 
potential increased risk to in-flight security. End of quote. I 
ask unanimous consent that this letter be part of the hearing 
record. Without objection, so ordered.
    Chairman Cummings. At this point, it seems clear that 
Congress needs to step in to ensure that TSA finally addresses 
these security vulnerabilities and to prevent any additional 
airport workers from being diverted from their primary roles.
    Today, with Chairman Thompson of the Homeland Security 
Committee, I am introducing the Covert Testing and Risk 
Mitigation Improvement Act, which would establish standards for 
covert testing and require TSA to track and report its progress 
in resolving vulnerabilities as part of its annual budget 
submission to Congress.
    I look forward to working closely with all of my colleagues 
to move this legislation as quickly as possible.
    With that, I now yield to the distinguished member and 
ranking member of our committee, Mr. Jordan.
    Mr. Jordan. Thank you.
    The chairman asked why the administration is sending TSA 
personnel to the border. Why are they sending TSA personnel to 
the border? Because there is a crisis. Just a few months ago, 
in one drug seizure, enough fentanyl to kill 57 million 
Americans. Last month alone, the month of May, 144,000 
apprehensions on the border. And he is asking why we are 
sending people there. Because it is a crisis.
    What is the Democrat's response? The Speaker of the House 
said walls are immoral. Congressman Blumenauer said abolish 
ICE, and there has been a supplemental waiting for six weeks to 
address the crisis. That is the problem.
    And he criticized the administration for trying to do 
anything and everything they can do to deal with this 
humanitarian crisis on the border. Give me a break.
    Mr. Chairman, TSA has an important mission to keep 
Americans safe in airports and the air. We rely on TSA always 
to be one step ahead of those who want to do us harm.
    However, we have learned, as you said earlier in your 
statement, from GAO and the Inspector General that TSA can 
improve how to evaluate its own security vulnerabilities. I 
look forward to hearing from Administrator Pekoske about how 
TSA can use the work of GAO and the Inspector General to better 
secure our country.
    Aviation security is just one part, though, of securing our 
homeland. Another key part is where I started, border security.
    I want to extend my appreciation to the men and women of 
TSA and all the DHS components who have volunteered to go to 
the border and help address the crisis. There is no other word 
for it. The crisis.
    Several weeks ago, Acting Secretary McAleenan testified to 
the Senate Judiciary Committee--think about this--the DHS he 
said, quote, identified almost 4,800 migrants this year 
presenting as family units that were determined to be 
fraudulent. He testified that they uncovered--when we talk 
about a humanitarian crisis, think about this. They uncovered 
child recycling rings, innocent children being used multiple 
times to help different adults gain illegal entry into the 
country and then be released.
    He also mentioned an example of Custom and Border Patrol 
officials speaking to a man who confessed to not being the 
father of the child he had in his custody. That man told 
officials he paid the mother of the child $80 to take her child 
so that he could gain entry, be released into the country 
because he knew that under U.S. law he would be released into 
the interior of the United States in 20 days.
    But for six weeks, there has been a supplemental 
appropriations bill sitting there that the Democrats will not 
pass. That child was six months old.
    The Acting Secretary also said that in the 40 days prior to 
his testimony, 60,000 children entered DHS custody. Now, we are 
going to criticize the administration for trying to get as many 
people there as we can to help with this crisis?
    I want to commend my colleagues from Texas, Mr. Cloud and 
Mr. Roy, for taking a leadership role and highlighting the 
emergency on our border. We must get this crisis at the border 
under control
    But it seems to me my colleagues in the majority are too 
preoccupied criticizing the President, criticizing the 
administration, too preoccupied with trying to decide whether 
they are going to impeach or not to actually focus on the 
problem. Maybe we should just focus on the problem, forget 
about the personalities, and help these kids, help this 
situation. I urge my colleagues here today to do whatever we 
can, stand up for strong border security so that we can bring 
an end to, as I have said now several times, what everyone in 
this country understands is a crisis.
    I yield back.
    Chairman Cummings. Thank you very much.
    Now I would like to welcome our witnesses. Mr. Charles M. 
Johnson, Jr. is the Managing Director for Homeland Security and 
Justice Issues at the Government Accountability Office. Mr. 
Donald Bumgardner is the Deputy Assistant Inspector General for 
Audits at the U.S. Department of Homeland Security. And the 
Honorable David Pekoske is the Administrator of the 
Transportation Security Administration.
    If all of you would please rise and raise your right hand, 
I will swear you in.
    [Witnesses sworn.]
    Chairman Cummings. Let the record show that the witnesses 
answered in the affirmative. Thank you. You may be seated.
    The microphones, gentlemen, are very sensitive. So please 
speak directly into them, make sure that they are on when you 
are speaking, of course. And without objection, your written 
statement will be made a part of the record.
    With that, Mr. Johnson, you are now recognized for five 
minutes.

   STATEMENT OF CHARLES M. JOHNSON, JR., MANAGING DIRECTOR, 
HOMELAND SECURITY AND JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY 
                             OFFICE


    Mr. Johnson. Thank you, Mr. Chairman.
    Chairman Cummings, Ranking Member Jordan, members of the 
committee, thank you for the opportunity to address GAO's 
findings from its April 2019 report on TSA's covert testing 
program.
    My statement today will cover three areas: the extent to 
which TSA's covert tests are risk-informed, have produced 
quality information, and have been used to address security 
vulnerabilities. In addition, I will provide an update on the 
actions TSA has taken in response to our recommendations.
    Before I address these areas, it is important to note that 
threats to aviation security persist and continue to evolve. 
For example, the Intelligence Community has noted that 
terrorist organizations now have the capabilities to plant 
explosives inside personal electronic devices, such as laptops.
    So why is a risk-informed approach important? A risk-
informed approach not only helps decisionmakers identify and 
evaluate the threats that exist, but also to develop mitigation 
plans.
    TSA uses its covert tests as a means to do so. There are 
two units within TSA that undertake this effort to do covert 
testing: the Inspections Office, which looks at the wide 
spectrum of security vulnerabilities associated with TSA's 
aviation security system, and the Security Operations Office, 
which focuses on the screeners' performance in terms of 
applying the standard operation procedures that they have 
established in undertaking checked baggage and checkpoint 
screening. As such, it is important that these units test based 
on identified or potential risks.
    With respect to whether TSA's covert tests are risk-
informed, good news. TSA has taken steps to improve in this 
area. Specifically, the Inspections Office redesigned its 
covert tests in 2016 to be more risk-informed and quantitative 
and has recently taken additional steps, which we are currently 
assessing, to document its rationale for selecting covert 
tests.
    Additionally, the Security Operations Office redesigned its 
covert tests to address prior deficiencies that have been 
identified by ourselves and the Inspector General and has more 
formally incorporated known risks into its process, 
particularly the use of intelligence reporting.
    With respect to TSA's covert tests producing quality 
information, not so good news. While TSA's Inspection Office 
has redesigned its process to produce quality information, the 
Security Operations unit has not been able to ensure the 
quality of its tests and the covertness of its tests in 
particular, particularly those that are performed by TSA 
personnel at local airports.
    As such, we recommended that TSA assess its Security 
Operations Office covert testing process to identify 
opportunities to improve the quality of its tests and, as I 
mentioned, particularly the consistency in undertaking those 
tests, as well as the covertness of those tests. We believe 
this will help TSA improve the quality of test results, thereby 
enhancing TSA's ability to address vulnerabilities.
    Good news. TSA has agreed with our recommendation and has 
estimated that they will complete this recommendation or 
implement it within a month from now, sometime in the next 
month.
    With respect to TSA's use of covert tests results to 
address identified vulnerabilities, also not so good news. We 
found that although TSA established a security vulnerability 
management process in 2015 to review and address security 
threats, this process in itself had not resolved any of the 
nine security vulnerabilities that have been submitted to the 
process by the Inspections Office. According to TSA, this 
process was set up to ensure the cooperation of various TSO 
program offices that had expertise that can assist in 
addressing the vulnerabilities. Among other things, we noted in 
our report that a lack of established timeframes and milestones 
to achieve this, particularly for the office to be assigned the 
responsibility and to mitigate the identified threats, has made 
it more difficult for TSA to effectively use this process to 
address those vulnerabilities.
    As such, we recommended that TSA establish timeframes and 
milestones within the steps for its security vulnerability 
management process and establish procedures for monitoring 
progress.
    The good news is that TSA has acted and revised this 
process to meet the intent of our recommendations.
    Overall, although TSA has taken some steps to improve its 
covert testing program and to address two of our nine 
recommendations--or actually four of them, two of them we have 
closed as implemented. Two, we are in the process of looking at 
the information. There are five that remain to be addressed. We 
believe that sustained management attention will be needed to 
ensure continued progress toward identified and mitigating 
security vulnerabilities. This is vital to ensuring the safety 
of our aviation security system.
    In closing, I would like to personally thank the GAO staff 
who worked on this review and this committee for the 
opportunity to testify today on our findings.
    At this point, I am happy to answer any questions you may 
have.
    Chairman Cummings. Thank you very much.
    Mr. Bumgardner?

   STATEMENT OF DONALD BUMGARDNER, DONALD BUMGARDNER, DEPUTY 
ASSISTANT INSPECTOR GENERAL; OFFICE OF INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Bumgardner. Chairman Cummings, Ranking Member Jordan, 
and members of the committee, thank you for inviting me here 
today to discuss our work on TSA security vulnerabilities and 
persistent challenges.
    TSA has a vital but extremely difficult mission to protect 
the Nation's transportation system and ensure freedom of 
movement for people and commerce. Every day security officers 
at about 450 airports screen approximately 2 million 
passengers, 5.5 million carry-on items, and 1.4 million checked 
bags. This responsibility is complicated by the constantly 
evolving threat of adversaries willing to use any means to 
cause harm and destruction. Missing one threat can have 
potential catastrophic consequences.
    In the past, we have shared concerns about the 
vulnerabilities in TSA operations while also acknowledging 
TSA's challenges and areas of improvement. Our more recent work 
continues to show that TSA needs to strengthen its efforts to 
address persistent problems.
    Since 2014, we have audited and inspected various security-
related aspects of TSA, including passenger and baggage 
screening operations, PreCheck, the Federal Air Marshal 
Service, and IT systems. These reviews resulted in OIG issuing 
24 reports to TSA with 136 recommendations designed to reduce 
security vulnerabilities in the aviation transportation system.
    For example, our covert testing continues to reveal 
persistent and troubling problems. Since DHS OIG's inception, 
we have conducted thousands of covert tests which resulted in 
14 reports. Since 2014, we assessed through covert testing 
checked baggage screening, passenger screening at checkpoints, 
and airport access controls. Our findings and conclusions from 
these tests have been consistent with those of TSA's internal 
testing in these areas. Because covert test results are 
classified, they cannot be discussed here today, but we have 
provided the Department, TSA, and our appropriate congressional 
committees with our classified reports.
    Our covert testing has identified vulnerabilities related 
to people, processes and procedures, and technology 
specifically. People often contribute to weaknesses in security 
operations due to complacency or failing to think critically. 
TSA processes and procedures are often vague or open to 
interpretation, which results in security gaps. And 
technological limitations sometimes contribute to security 
weaknesses, even though TSA asserts its first strategic 
priority is to improve security and safeguard the 
transportation system.
    Reducing these vulnerabilities is critical to ensuring 
threat objects are not carried on board aircraft and 
unauthorized individuals who want to cause harm cannot gain 
access to the airports' secure areas.
    Another focus of our work relates to TSA's PreCheck 
initiative. Beginning in 2012, TSA increased the use of 
PreCheck, allowing expedited screening for nearly half of the 
flying public. In 2014, we concluded that TSA needed to modify 
PreCheck vetting and screening processes and improve PreCheck 
communication and coordination. We made 22 recommendations in 
our reports, and TSA has taken sufficient action to close 17 of 
those recommendations.
    Although TSA has taken steps to implement many of our 
security-related recommendations, it has not fully implemented 
all of them. Currently, 39 of these recommendations remain 
open. Of the 39, 17 recommendations have been open since Fiscal 
Year 2017 or earlier. These 17 older recommendations generally 
relate to testing of screening equipment, technological 
advancements, PreCheck vetting and screening operations, 
developing and implementing a cross-cutting risk-based 
strategy, and implementing a formal budget process that uses 
risk to inform resource allocation.
    Finally, we recognize and are encouraged by TSA's steps 
toward compliance with our recent recommendations. With a 
sustained commitment to addressing known vulnerabilities, the 
agency risks compromising the safety of the Nation's 
transportation systems. We will continue to assess TSA's 
performance, identify vulnerabilities and areas for 
improvement, and make recommendations that enable TSA to become 
more efficient and effective in safeguarding our transportation 
system.
    Mr. Chairman, this concludes my testimony. I am happy to 
answer any questions you or other members of the committee may 
have.
    Chairman Cummings. Thank you very much.
    Mr. Pekoske?

      STATEMENT OF HON. DAVID P. PEKOSKE, ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Pekoske. Chairman Cummings, Ranking Member Jordan, and 
distinguished members of the committee, thank you for the 
opportunity to appear before you today to discuss how TSA 
identifies, resolves, and prevents vulnerabilities within our 
security operations. I appreciate the oversight and support you 
and your staffs provide TSA, as well as the constructive and 
productive relationships TSA has with the Inspector General and 
the Government Accountability Office.
    I am very proud of the 63,000 dedicated men and women that 
I work alongside at TSA. They serve the public with integrity, 
respect, and commitment.
    Like this committee, the esteemed colleagues sitting next 
to me, and the entire TSA team, we share the same goal: 
securing our transportation systems against the current threats 
that we face.
    When I appeared before this committee in September of last 
year, I expressed how important it is for TSA to be an agile 
organization, one that can quickly adapt to changing threats, 
but also one that learns from mistakes and avoids repeating 
them.
    Overall, TSA has taken significant efforts to address the 
IG and GAO recommendations as quickly as possible. We have 
already submitted to GAO requests for closure of four of the 
nine recommendations included in its December 2018 audit report 
on covert testing. And we have achieved closure on the vast 
majority of security-related recommendations the IG has issued 
since 2014. As for the remainder, I am committed to getting 
them closed as soon as possible.
    The IG's audits in recent years identified vulnerabilities 
pertaining to screener performance, equipment, and procedures. 
We have progressed in addressing those recommendations by 
investing in enhanced training and retention programs for our 
frontline personnel, by simplifying unnecessarily complex 
procedural guidance and revising screening processes to improve 
detection, and by accelerating procurement of more effective 
checkpoint screening equipment.
    In the last two years, we have revamped the Federal Air 
Marshal Service's concept of operations to better align this 
critical in-flight law enforcement capability against risk. We 
are also actively working to ensure that only trusted travelers 
access PreCheck lanes per the IG's recommendation and the 
mandates set forth in the TSA Modernization Act of 2018.
    Additionally, in the past year, TSA has instituted some key 
restructuring changes to improve the agency's risk 
capabilities, covert testing program, and the ability to 
address vulnerabilities in a timely manner.
    TSA aligned its system-side covert testing programs under 
one program office. Consolidating covert testing programs under 
that office will drive rigor and consistency across all the 
agency's covert testing efforts.
    TSA also consolidated all operational risk analysis 
capabilities, which were previously housed in disparate places 
under a single responsible office. This change is critical to 
ensuring a consistent, cross-cutting operational risk 
methodology that can inform larger agency processes and the 
prioritization of budget resources.
    We also established the security vulnerabilities management 
process, or SVMP, to track and manage security vulnerabilities 
identified by external and internal sources, as well as agency 
mitigation efforts. In response to GAO, TSA improved SVMP 
governance by strengthening executive oversight and 
establishing timeframes and milestones for tracking and 
mitigating vulnerabilities.
    To ensure we are closing identified vulnerabilities in a 
timely fashion, I will be holding quarterly risk meetings. 
These meetings will also help inform TSA's covert testing 
plans, as well as our planning and budgeting processes. The 
timely closure of recommendations is an area I will continue to 
focus on. I anticipate TSA will request closure for nearly all 
of the recommendations from fiscal 2017 and earlier by the end 
of this year.
    Many of the challenges faces requires an iterative and 
collaborative process to reach the goal we all share of 
identifying and closing vulnerabilities. I will continue to 
work closely with the IG, the GAO, and the Congress to assist 
the agency in its continued development of solutions to the 
challenges that we face.
    I am grateful for the opportunity to serve, and Mr. 
Chairman, I look forward to your questions. Thank you, sir.
    Chairman Cummings. Thank you very much.
    I now yield myself five minutes for questions.
    Administrator Pekoske, Mr. Bumgardner, and Mr. Johnson, 
again I want to thank you all for being here this morning.
    The Office of the Inspector General and the Government 
Accountability Office have both identified critical 
vulnerabilities in our aviation security system that have 
remained unresolved and in some cases for years.
    Mr. Johnson, the report that GAO issued this past April 1--
and I quote--it is important that TSA make timely progress on 
formal mitigation solutions because, in some cases, inspection 
findings represent system-wide vulnerabilities to commercial 
aviation that could result in potentially very serious 
consequences for TSA and the traveling public. End of quote. Is 
that accurate?
    Mr. Johnson. Yes, it is, Congressman.
    Chairman Cummings. Similarly, Mr. Bumgardner, you titled a 
section of your written testimony, quote, Covert Testing 
Continues to Reveal Persistent and Troubling Problems. End of 
quote. And then you go on to say that reducing these 
vulnerabilities is critical to ensuring threat objects are not 
carried on board aircraft and unauthorized individuals who want 
to cause harm cannot gain access to airports' secure areas. 
Such actions could cause catastrophic damage resulting in loss 
of life and property. Is that right?
    Mr. Bumgardner. Yes, Mr. Chairman.
    Chairman Cummings. So to me, these statements are like 
flashing red lights. And here is the key question. In your 
opinion, why are the vulnerabilities that could cause 
catastrophic damage or potentially serious consequences 
languishing at TSA without being resolved? Does the agency need 
more resources of personnel or new processes or procedures or a 
new sense of urgency? Any of you. Mr. Johnson?
    Mr. Johnson. Thank you, Mr. Chairman.
    One of the things we noted was that it often took up to 
somewhere from three, four, seven months for even the 
vulnerabilities to be assigned to someone to take a look at to 
mitigate. And then they languished in the system for up to, in 
some cases, over a year to over three years.
    Part of the thing that needs to be done is that that 
security vulnerability management process that the 
Administrator mentioned needs to have better controls in place 
to ensure that there are some timelines set, there are 
milestones, that there is some check-in to make sure that 
progress is being made. They were simply assigned there and 
lack of progress was made. As I mentioned, none of those nine 
vulnerabilities identified by the Inspections Office have been 
resolved through that process. There was one that was closed, 
but it was outside of that process.
    Chairman Cummings. So I guess you could term that 
organization, procedures, and a sense of urgency. Is that a 
fair statement?
    Mr. Johnson. It is a fair statement, but it is more so the 
need to have sustained management attention toward these 
issues. And as the Administrator mentioned, his quarterly 
meetings and check-ins would help in that area.
    Chairman Cummings. Mr. Bumgardner, did you want to say 
something?
    Mr. Bumgardner. I would agree with Mr. Johnson on the 
technology development. It does take time. There have been some 
changes in priorities, and oftentimes we find there is 
insufficient evidence to support the changes that we have 
recommended.
    Chairman Cummings. What do you mean by that?
    Mr. Bumgardner. Well, if we ask for results-oriented 
changes, we oftentimes will not get the sufficient response 
from the agency that would close the recommendation. And all of 
this is happening with the TSO issues and concerns we have with 
the retention and the training and the hiring of TSO officers 
with an ever-increasing air travel system, which Mr. Pekoske 
mentioned in his statement is scheduled to be very high this 
summer.
    Chairman Cummings. Now, Mr. Pekoske, I do, from my days 
with the Coast Guard--a lot of people do not know I used to be 
the subcommittee chairman and the transportation of the Coast 
Guard. And you were in the Coast Guard. So I appreciate your 
leadership. You have been an outstanding leader. And I 
appreciate that you are making changes in the agency's approach 
in effort to resolve these vulnerabilities. I hope that through 
continued oversight, we will see many of those vulnerabilities 
fully--fully--addressed.
    But I want to know that the focus you are bringing to 
closing these vulnerabilities and improving covert testing 
processes will not waver if you leave the agency. And what kind 
of assurances can we have of that?
    Mr. Pekoske. Mr. Chairman, thank you for your comments.
    Sir, I am in a five-year term as the TSA Administrator. So 
I have no intention of leaving the agency. I intend to fully 
serve out my term, and I appreciate the Congress' support of 
that effort because I think leadership consistency in TSA is 
very important.
    Sir, one of the other things that I think is important to 
consider is that it is critical that we have systematic changes 
and systematic adjustments so that we do not repeat what we 
have heard from the IG and the GAO. And to do that, as you 
know, I published a TSA strategy with a lot of input from my 
TSA work force and from our stakeholders. Following that, I 
published the Administrator's Intent. And these are designed to 
lay the groundwork in place to make some structural changes 
that I spoke of in my opening statement.
    So to hit your key areas in terms of what we might need, 
yes, resources. We need a significant investment of technology. 
We now have a capital investment plan for TSA that lays out our 
technology requirements over the entire future years homeland 
security plan.
    The structural changes. I mentioned that we are moving all 
of our covert testing into one office. That to me makes eminent 
good sense. I need to have one place to focus on it. And I can 
assure you that we are going to do more covert testing--we 
already have--over the course of time, and repeatable covert 
testing so we can see if we make a change and do another covert 
test after that, how has that change been? Has it had the 
effect that we think?
    And the other one is process. I think the process one is 
particularly critical. This requires senior leader focus all 
the time, and that is why I want to have, at the Administrator 
level, those quarterly meetings to take a look at, hey, what is 
our risk this quarter? Has it changed from what we saw in the 
past? And then second, how are we allocating our covert testing 
resources and our internal resources to address the 
vulnerabilities that have been identified.
    Chairman Cummings. I am going to close by saying this. My 
Democratic colleagues and I--we are joining in introducing the 
Covert Testing and Risk Mitigation Improvement Act this 
morning. This bill, gentlemen, which is also cosponsored by 
Chairman Thompson, the chairman of the Homeland Security 
Committee, would do two major things: codify procedures for 
covert testing and vulnerability mitigation recommended by GAO 
and, two, require TSA to track and report its progress in 
resolving security vulnerabilities identified through these 
covert tests as part of its annual budget submission. We need a 
laser focus on closing security gaps through which our enemies 
could attack us, and my legislation is intended to direct the 
attention of both TSA and the Congress to this critical task. 
And hopefully, this will be helpful.
    With that, I now yield Mr. Hice five minutes for questions.
    Mr. Hice. Thank you, Mr. Chairman.
    So the title of this hearing today is ``Identifying, 
Resolving, and Preventing Vulnerabilities in TSA's Security 
Operations.'' That is a worthy title. It comes with a lot of 
responsibility. There is a lot of weight in that title.
    Overall, though, I must confess it is a bit concerning to 
me. I wonder, for example, if my Democrat friends would be 
concerned if, at the TSA, we had no security whatsoever and 
anyone as able to walk on a plane and we did not know who they 
were, where they came from, what their intentions were. They 
were just able to go through TSA without any security check and 
get on board. Of course, they would not want that because we 
all want aviation safety.
    And yet, that is exactly what is happening on our southern 
border right now. We have people coming across our border. We 
do not know who they are. We do not know what their intentions 
are. We do not know what their plans are. But we do know that 
there have been thousands of crimes committed, including murder 
and rape and a host of other things. We know there have been 
tons of drugs coming across our southern border. And yet, we 
have little to no security there whatsoever.
    I was there myself just a few weeks ago and was stunned 
that what is happening in our southern border is happening. It 
is inexcusable to me that what is happening in our southern 
border is taking place here in the United States where people 
are just freely coming across here, contraband freely coming 
across our border, criminals freely coming across our border.
    Why are we not having a hearing today on identifying, 
resolving, and preventing vulnerabilities within our southern 
border security operations? And yet, the concern is aviation 
because we all fly. We want to be safe in the air. But does 
that mean we do not want to be safe in our country?
    Mr. Pekoske, would you agree with me that being so 
concerned about airport security but not being concerned about 
security on our southern border just does not add up?
    Mr. Pekoske. Sir, I think we need to be concerned with 
both. And like you, I was just down in the southern border 
about four weeks ago, saw the situation there. It is dire and 
it is a crisis, and we do need to place focus on it.
    The chairman mentioned in his opening remarks the 
assignment of TSA volunteers to the southern border, as are 
other components of DHS providing volunteers. This is a crisis 
and we need to address that crisis. This is a high risk for us 
as a Nation. Border security is national security, and we need 
to get at this and get at this in a serious way.
    What we are doing right now is really addressing what is 
right in front of us, but as we all know in this room, we do 
need to address the overall immigration law system entirely to 
be able to have better management and better control of our 
borders.
    And so I completely agree with both being critically 
important.
    The final thing I would say, sir, is--and I think it is 
important to put in context. I will say--and I have traveled 
all around the world, and I think I have got the expertise now 
to say this. The United States has the most sophisticated and 
the most advanced aviation security system in the world, bar 
none, within the context of our legal structure and within the 
context of our great American culture.
    The other thing to keep in mind is that we are one of the 
only security systems that does covert testing because we want 
to know where those vulnerabilities are. We want to know where 
they are before our adversary does, and to the chairman's 
point, to the ranking member's point, we want to close them as 
quickly as we can. And that is what I pledge to focus on.
    Mr. Hice. Well, thank you. And we need that same security 
advancement and the best in the world at our border.
    How many TSOs are currently at the border? Do you know?
    Mr. Pekoske. Sir, we have under 88. We have 88. We have 
under 100 TSOs deployed to the southern border. These are all 
volunteers. And whenever we decide that a volunteer is able to 
deploy, we take a very careful look at the airport from which 
he or she is deploying to make sure that we can mitigate the 
risks at that airport and also manage throughput for all the 
passengers going through. This is a very busy travel season. In 
fact, we had the busiest travel day ever in Coast Guard history 
on the Friday of Memorial Day weekend. So we are very cognizant 
of that.
    But, again, I have to balance off the risk at the southern 
border with the need to keep airports staffed. The other thing 
to keep in mind----
    Mr. Hice. Are those 88--is that going to significantly 
decrease aviation security?
    Mr. Pekoske. No, sir. It will have no effect on aviation 
security, none whatsoever. We have baselines of aviation 
security that we do not go below, and that has been my guidance 
since the first day I came into this position.
    Mr. Hice. Thank you very much.
    I yield back.
    Chairman Cummings. Thank you.
    Ms. Maloney?
    Ms. Maloney. Thank you, Mr. Chairman and Ranking Member, 
for holding this important hearing. And I thank all of you for 
your dedication and being here today.
    There was an article recently in the ``Atlantic Journal-
Constitution'' published in May 2019. And I quote, airlines 
brought in about $4.9 billion in baggage fees in 2019 alone. 
And one airline made a profit of over a billion dollars. So 
there is an incentive for them to charge for these bags. They 
are making a lot of money off it. And it can cost families 
really hundreds of dollars to check their luggage.
    So I am seeing that these carry-on bags are huge. Usually 
when I fly, they cannot even put them in the plane. They got to 
check at the door because there are so many of them and they 
are so overstuffed you cannot even put them on top.
    So I would like to ask Administrator Pekoske what is the 
impact of increasing amounts of carry-on luggage being moved 
through the checkpoints. And is this baggage being tightly 
stuffed, more tightly stuffed than in the past, and is this a 
security challenge in any way? Is the standard for carry-on 
luggage and the screening for it the same as the standard for 
screening of luggage that goes into the belly of the plane? Is 
it a security challenge for you now, or do you see it as a 
security challenge?
    Mr. Pekoske. Yes, ma'am. You know, there are two factors at 
play here. One is the generally about a four to five percent 
year over year increase in passenger travel. So you have an 
increased volume of passengers, which is a good thing because 
it demonstrates that our economy is doing very, very well.
    But also to your point, passengers would prefer not to 
check a bag. They would prefer to have the bag in their 
possession because sometimes they have things that they want to 
keep close by, and they also want to be able to exit the 
airport quickly. So we are seeing passengers put more things 
in----
    Ms. Maloney. And also the cost. The cost, too.
    Mr. Pekoske. And also the cost, yes, ma'am.
    The technology that we are deploying at the screening 
checkpoint, though, now is the computer tomography, or CT-scan 
technology, really can see in a three-dimensional way what is 
in a carry-on bag. So it addresses that issue of having a lot 
of things there. And it does take longer. The more things that 
are in a bag----
    Ms. Maloney. It is as secure as the checking of what goes 
into the belly of the plane?
    Mr. Pekoske. Once this technology is all deployed, ma'am, 
it will actually be more secure.
    Ms. Maloney. Wow. Okay.
    Do airline policies that charge increasing amounts for 
checked bags have any ripple effects that impact aviation 
security in any way?
    Mr. Pekoske. No, Congresswoman. They do not impact aviation 
security because we inspect every bag for the same standard, 
and we ensure that we do that, whether it is a checked bag to 
checked bag standards or a carry-on bag to carry-on bag 
standards.
    Ms. Maloney. And, Mr. Bumgardner, do you have any thoughts 
on the impact that increasing amounts of overstuffed baggage 
has on any of the security vulnerabilities that your team has 
identified in the checkpoints?
    Mr. Bumgardner. Yes, ma'am. We have noticed in the past, as 
we have done our covert testing, that as more travelers bring 
on more densely packed bags, it slows things down, and there 
have been some difficulties sort of identifying items in those 
bags.
    Ms. Maloney. I would like to ask Administrator Pekoske, do 
you keep records on attempts to violate security through the 
airport? Every now and then, I talk to pilots who say they feel 
that sometimes our enemies are checking our security. You know, 
they catch them doing certain things. One told me that in the 
lavatory, they literally tried to cut through the lavatory into 
the cockpit with a knife or a machine of some type. Do you keep 
records of these, quote, attempts, and could you share with us 
the amount of them and what we are doing about it? Every now 
and then, I am in the airport and they close it down. And you 
do not even know why, but I feel that they have found something 
they feel is threat to people.
    Mr. Pekoske. Yes, ma'am. We do keep records of all of the 
attempts to evade security or to in some way, shape, or form 
get through security in a manner that you should not. Every 
single day I get a report that highlights all of the security 
attempts throughout the entire system.
    Just anecdotally, I will tell you that I am seeing more of 
them on a daily basis. Part of that is driven by the fact that 
we are seeing more passengers. But there are more attempts to 
create security situations both in airports and also on board 
aircraft.
    Ms. Maloney. Can you share with us an estimated amount per 
year?
    Mr. Pekoske. I cannot. That would just be literally off the 
top of my head. I would say, though, that every day the report 
I get is several pages long. It talks about every single 
incident that occurs at an airport. We can summarize some of 
that stuff, if you would like. But that is part of our risk 
evaluation process. We do look at trends of what are we seeing 
in our own experience happening at the checkpoint.
    But there is a part of this too is that we do not want to 
be rearward looking only, in other words, looking at the past. 
We want to be looking at where we think the threat is going.
    Ms. Maloney. Thank you very much for your service. And I 
would like to see that. If you would give it to the chairman, 
we could all study it. Thank you.
    Chairman Cummings. Before we go to Mr. Meadows, I am just 
curious. Mr. Pekoske, how much of this has to do with training?
    Mr. Pekoske. There is a good deal that has to do with 
training, sir. I think it is a combination of training the 
procedures that I mentioned, making the procedures more 
understandable, and finally the technology. We put a lot of 
emphasis on training, as you know. We have a TSA Academy now 
that is stood up so every officer goes through this academy in 
Glynco, Georgia. That is an attempt to begin to standardize the 
training.
    Additionally, we do have a TSO, transportation security 
officer, career progression plan that financially rewards 
officers for completing additional training and gaining 
additional certifications.
    Chairman Cummings. Thank you.
    Mr. Meadows?
    Mr. Meadows. Thank you, Mr. Chairman.
    So, Mr. Pekoske, at what point are we going to have the GAO 
and the Inspector General's recommendations completed and 
closed?
    Mr. Pekoske. Sir, we should have all of the recommendations 
that are earlier than fiscal 2017 completed and closed by the 
end of this calendar year. That is our goal.
    Some of the other recommendations that are 2017 and more 
current do take a little bit more time because they involve, 
for example, acquisition programs. There is one technology that 
we are using to better identify a passenger at the first entry 
point into a screening checkpoint. The IG will close that once 
we make further progress on that acquisition project. Some of 
it is budget-based.
    Mr. Meadows. So if we are looking at these--and I am over 
here. I know it is kind of like the voice of God.
    [Laughter.]
    Mr. Meadows. But if we are looking at some of these 
recommendations, here is one of the frustrations I have is that 
you talk about airline passenger counts going up. You talk 
about carry-ons going up. And yet, much of what TSA has done is 
not changed the way that you actually screen passengers. You 
know, if you want to look at a model of inefficiency, go to 
Reagan right here where every single Member is judging TSA each 
and every week that they fly out. And yet, what we find are the 
standards that are used are standards that many times were put 
in place 10, 15, years ago. At what point are we going to have 
a change in terms of trying to make that more efficient so that 
we do not get bogged down?
    Mr. Pekoske. We are doing a couple things, sir. One is to 
focus on making PreCheck purely precheck. Right now, based on a 
series of rules, a passenger who is not a PreCheck registered 
or a global entry registrant could get PreCheck on their 
boarding pass. We are phasing that out over the course of the 
next several months. So the PreCheck experience should get 
quite a bit better.
    We are also prototyping a process where we do assess risk 
by passenger, and can we provide a different level of screening 
for passengers we deem----
    Mr. Meadows. So when do you implement that? And the reason 
I say that is I have gone through and I have gotten random 
screened in Reagan where they do the whole thing for some types 
of gunpowder I guess on my hand. And I have been searched in 
ways that candidly I would not recommend any American citizen 
being searched that way. And yet, your TSA agents seem to be 
laughing because they knew I was a Member of Congress, as my 
colleagues said.
    So at what point are we going to start looking at 
profiling--and I use that word delicately--where we actually 
address the people that are the most high risk?
    Mr. Pekoske. That is the goal, sir, is to really focus the 
resources on where the greatest risk is.
    Mr. Meadows. I know that is a goal, but when are we going 
to do that?
    Mr. Pekoske. It takes some time.
    Mr. Meadows. Because this is not our first rodeo. We have 
been here with the chairman where we have had these same kind 
of issues over the last seven years, and we have had the same 
kind of inability to get them done. It seems like you are a 
serious guy, that you want to get it done. But I guess I am 
tired of progress being made, and yet we are not seeing any 
progress at our Nation's airports.
    Mr. Pekoske. That is one of the reasons why we developed 
the capital investment plan for TSA because a lot of this is 
technology. You mentioned going through and getting a pat-down. 
Nobody likes that. The officers do not like to do it, and 
passengers certainly do not like the invasion of their privacy 
with a pat-down. There is technology out there that will begin 
to address that more completely than what we currently have. 
That is why we put a capital investment plan in so we can get--
--
    Mr. Meadows. But with that pat-down, I mean, the new scan 
where you hold your hands up--actually that encourages more 
pat-downs not less than the magnetometer.
    Mr. Pekoske. Yes, sir. And that is because that particular 
piece of technology, while it is good at detecting, also has a 
higher false alarm rate than we would like.
    Mr. Meadows. So we need to get rid of those. Would you not 
agree?
    Mr. Pekoske. We need to get something different there. Yes, 
sir.
    Mr. Meadows. Okay. And so I am willing to work in a 
bipartisan way to get you the technology, but here is what I 
guess we need to see. We need to quit worrying about the 95-
year-old grandmother that is going through in a wheelchair and 
you act like she is a terrorist and start screening individuals 
from a standpoint that are a higher risk assessment. Would you 
not agree with that?
    Mr. Pekoske. I would provided we always have some level of 
random selection.
    Mr. Meadows. I get that. But here is the thing. You treat 
us randomly at Reagan very differently than you would at other 
airports when it comes to even the random screening for 
gunpowder because that it not typical at every single airport. 
Would you agree with that?
    Mr. Pekoske. Yes, sir, I would agree. We do a risk 
assessment at each individual airport. So the risks at airports 
are different one to the other.
    Mr. Meadows. So there is a greater risk of me carrying a 
gun out of Reagan than there is out of North Carolina? I do not 
think so.
    I will yield back.
    Chairman Cummings. Thank you very much.
    Ms. Norton?
    Ms. Norton. Thank you very much, Mr. Chairman. And I just 
want to thank you for holding this hearing. Unlike my friend on 
the other side who indicated his concern with border security--
I of course have the same concern. But I remind him that 
commercial aviation is--our hearing today about commercial 
aviation is about border security and about a very important 
component of border security.
    But my question really has to go with whether or not we 
have really made any progress here or whether we are spinning 
our wheels. TSA started at a very low point. It did not have 
corrective actions. It did not even have a process to assess 
whether they were implemented. And so there was a report about 
10 years ago that identified all of that, indicating that it 
was limited in its--this is a GAO report--that TSA was limited 
in its ability to use covert testing results. So, you know, if 
you got the results, I want you to do something with it.
    So let us fast forward to the 2015 GAO report and it 
established that the security vulnerability management process 
had submitted nine security--it had a process--had submitted 
nine security vulnerabilities through the covert testing for 
mitigation. But as of September last year, none had been 
formally resolved through the process that GSA found that it 
took seven months to even assign an office to begin mitigation 
efforts.
    So I am trying to figure out now that you have made some 
progress and we are still not moving to resolve these 
vulnerabilities--perhaps I should start with Mr. Johnson. Why 
has GSA had so many challenges for this 10-year period in 
developing a process to use the results of covert tests to 
improve aviation security? So here we are going through it, but 
they cannot use what they find. Why not?
    Mr. Johnson. So, Congresswoman, thank you for that 
question.
    One of their biggest challenges was that, as I noted 
earlier, they did not establish sort of timelines and 
milestones to make progress, but that is in addition to the 
delay in getting them assigned.
    Ms. Norton. Do you have those timelines now, Mr. Pekoske?
    Mr. Pekoske. We do.
    Mr. Johnson. So that has been progress in that area.
    Ms. Norton. Have you seen the result of the timelines, Mr. 
Johnson?
    Mr. Johnson. We would have to go back in and take a look at 
that, but I believe the commitment to have leadership monitor 
it will help in that area. That was one of the other parts for 
our recommendations, one of the things that we hope will get 
taken care of in the future. And I am pleased to hear that 
there is going to be the quarterly check-ins.
    Ms. Norton. That will help.
    Mr. Pekoske, I am the only member not only of this 
committee but of Congress who does not have to get on an 
airplane every week and go back and forth. And still I feel 
vulnerable.
    So what bothers me is the time it takes that we discover 
the vulnerabilities. You are on a committee that knows the 
vulnerabilities. Nothing is done about the vulnerabilities. And 
so you wonder shall I get on this plane. But my colleagues 
really do not have much choice.
    So I would appreciate those check-ins. How often did you 
say this committee will know progress being made?
    Mr. Pekoske. We will do check-ins at my level, 
Congresswoman, every quarter. So once a quarter, and then there 
is a larger look at risk every year.
    Ms. Norton. Could I ask that those check-ins every quarter 
be reported to the chairman of this committee?
    Mr. Pekoske. Certainly.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Cummings. Thank you.
    Mrs. Miller?
    Mrs. Miller. Thank you, Chairman Cummings and Ranking 
Member Jordan, and thank all of you all for being here today. 
And it is nice to see a WVU grad sitting out there.
    TSA is the last line of defense in our Nation's airports to 
ensure air travel remains safe and reliable for travelers. And 
it is important that TSA have the ability to address all of the 
vulnerabilities and deficiencies to keep all Americans safe.
    Mr. Johnson, after listening very carefully to your 
testimony as a managing director, to quote one of my good 
friends from West Virginia, "get er done".
    [Laughter.]
    Mrs. Miller. Administrator Pekoske, the Government 
Accountability Office found that there are three problem areas 
that exist in security operations when evaluating test results: 
knowledge deficiency, skill deficiency, and value deficiency. 
What steps has the TSA taken to help address these 
deficiencies?
    Mr. Pekoske. A number of steps, ma'am. The first one is to 
try to get the tools in the hands of the officers that they 
deserve to have to do the job that they are doing. When you are 
using a piece of technology that we know needs to be replaced--
there is better technology out there--we need to be fast in 
getting that technology in their hands.
    Additionally, we need to do a better job of training our 
officers. You know, I have been in this position now for almost 
two years, and I am very impressed and very proud to serve with 
the officers that are in this agency. They want to do the very 
best job they can. They understand the gravity of the position 
that they hold. We just need to do a better job. And we are 
making progress in this regard of training them and assessing 
their performance and doing coaching, mentoring, encouraging 
them for this very important job.
    Mrs. Miller. Okay. And have you taken steps to ensure the 
vulnerability owners are assigned to lead mitigation efforts?
    Mr. Pekoske. Yes, ma'am. That is the first step. You have 
got to say to an individual you are responsible for working us 
through this, and there is a reporting mechanism so we can 
assess progress along the way.
    Mrs. Miller. The TSA's mission statement on their Web page 
states that it is to protect the Nation's transportation 
systems to ensure freedom of movement for people and commerce.
    Our administration, under the leadership of President Trump 
and the DHS, has worked tirelessly to address the crisis at our 
southern border. In May alone, over 144,000 immigrants 
illegally crossed into the country. I know that Congress needs 
to be a partner to the administration to ensure that we address 
this crisis swiftly in the most humane way possible.
    I am really worried about the flow of illegal drugs that 
cross our border every single day into the communities. And in 
many states, as well as my own state in West Virginia, illegal 
fentanyl and heroin have had deadly and devastating effects. In 
January alone, the U.S. Customs and Border Protection 
apprehended 100 million lethal doses of fentanyl in Arizona.
    What is DHS doing to stop the flow of lethal opioids into 
the United States?
    Mr. Pekoske. We are very concerned about that very same 
issue, ma'am. And part of what we are dealing with on the 
southwest border right now is the trafficking of humans. And 
the cartels are using that as a replacement for the transport 
of drugs to some degree, but they are also using the transport 
of humans as a diversion to their ability to get drugs across 
the border.
    The solution to this for us is to put the focus on the 
southwest border that we are now. That is why we are sending 
volunteers from across DHS. That is why we have a supplemental 
request up here on the Hill to help us financially get at this 
problem so that we can free up Border Patrol officers and 
Customs agents to focus across the board on what they are 
doing.
    Mrs. Miller. Would you not say that the flow of these 
dangerous opioids across the southern border is one of our most 
significant threats to our national security?
    Mr. Pekoske. Yes, ma'am. I think any flow across our border 
that we do not control is a threat to our national security.
    Mrs. Miller. Thank you.
    Mr. Bumgardner, can you discuss some of the IG 
recommendations that the TSA has resolved?
    Mr. Bumgardner. Yes, Congresswoman Miller.
    We are concerned about retaining, hiring, and training of 
TSOs with the requisite skills. I believe TSA is working on 
that, as Administrator Pekoske indicated. We are also concerned 
with the screening technology, and I think there is a plan 
afoot to enhance that. And then updated policies and procedures 
is something that is near and dear to our heart, and most all 
of our covert work and other security-related work--there is a 
move afoot to--and a lot of those recommendations have been 
closed.
    But I would also say that one of the more important 
issues--and I am proud to say that this committee and others 
have held a lot of oversight hearings on TSA. And in 2015, we 
had seven hearings alone, and that also goes a long way to 
helping us close recommendations.
    Mrs. Miller. But that is more a work in progress as opposed 
to a resolution. Correct?
    Mr. Bumgardner. Yes, ma'am.
    Mrs. Miller. Thank you.
    Chairman Cummings. Ms. Wasserman Schultz?
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Mr. Pekoske, I have a couple of fairly tough questions for 
you, and I hope you can be frank since that is the purpose of 
this hearing.
    TSA is currently operating an aviation security training 
program to help Saudi Arabia start an air marshal program. This 
program was approved by former Department of Homeland Security 
Administrator John Kelly.
    Last week, the U.N. released an investigation into the 
murder of U.S.-based journalist Jamal Khashoggi inside the 
Saudi consulate in Istanbul. The report found--and I quote--Mr. 
Khashoggi's killing constituted an extrajudicial killing for 
which the state of the Kingdom of Saudi Arabia is responsible 
and that there is, quote, credible evidence warranting further 
investigation of high-level Saudi officials' individual 
liability, including the Crown Prince's.
    The Central Intelligence Agency reportedly assessed with 
high confidence that Crown Prince Mohammed bin Salman ordered 
the assassination, and the President has refused to provide the 
statutorily required Magnitsky Act report regarding who killed 
Mr. Khashoggi.
    Mr. Pekoske, is TSA still providing technical assistance to 
this program that specifically assists Saudi Arabia with their 
air marshal program, which supports a government complicit in 
the murder of a U.S. resident?
    Mr. Pekoske. Ma'am, we had done some assessments with the 
Saudi Government before Mr. Khashoggi's killing. To the best of 
my knowledge, since that occurred, we have not done any 
training. This has all been worked through the State Department 
through an agreement that we have with state. But as best I 
understand--and if I am wrong on that, we will certainly get 
back to you and correct it, but we have not done any training 
since that happened.
    Ms. Wasserman Schultz. Okay. So the program that has been 
assisting the Saudis with their air marshal program since the 
Khashoggi murder has been terminated, and there is no activity 
at all now in assisting the Saudi Government with their air 
marshal program.
    Mr. Pekoske. I do not know that the program itself has been 
terminated, but I am fairly certain there has been no activity 
on that program. And as best I recall, we had done assessments 
but actually had not done--we did assessments for what training 
they might need but had not done any actually training.
    Ms. Wasserman Schultz. Are you still providing technical 
assistance to this program?
    Mr. Pekoske. To the best of my knowledge, no.
    Ms. Wasserman Schultz. Okay. If you could get back to me 
for the record, that would be helpful.
    My next question is focused on the sexual harassment 
allegations that have occurred within TSA. In September of last 
year, you came before this committee to testify about 
misconduct and retaliation at TSA and were asked if TSA has a 
sexual harassment problem. And you said--and I quote--I believe 
we have employees that have violated our sexual harassment 
guidelines, and those employees should be held accountable.
    At least one high-level employee at that time, Joe 
Salvatore, had been under investigation for sexual harassment. 
The Office of Inspection found he had committed misconduct and 
recommended his termination. He was not terminated.
    Is anyone still employed in a senior level position at TSA 
who has been investigated for sexual harassment by the Office 
of Inspection and found to have committed misconduct?
    Mr. Pekoske. To the best of my knowledge, I cannot recall 
anybody that falls into that category. Mr. Salvatore is still 
employed by TSA. That decision was made by several 
administrators prior to my arrival, and it involved agreements 
that we thought was best not to disturb.
    Ms. Wasserman Schultz. Is that not something that you could 
revisit?
    Mr. Pekoske. No. That decision was made and it was closed 
at the time. And so I do not believe I can revisit that.
    Ms. Wasserman Schultz. So you are not aware of any senior 
level employees that have been investigated for sexual 
harassment by the Office of Inspection who are still working 
and have found to have committed misconduct. None.
    Mr. Pekoske. That come to my mind sitting here in this 
hearing. But I will go back and check the records and will get 
back to you if there are.
    Ms. Wasserman Schultz. Okay.
    You said last year that you were aggressively addressing 
the problem of sexual harassment of TSA. What actions have you 
taken since September, and what changes can you share with us 
that have addressed this issue?
    Mr. Pekoske. We do take an aggressive action whenever we 
have a case where there is a confirmed sexual harassment. We 
have done a lot of training to make sure that our employees 
feel free to be able to report sexual harassment because I 
think open and honest communications with our employees is a 
bedrock of a good, functioning organization.
    Ms. Wasserman Schultz. What actions that would fit in the 
definition of aggressively addressing the problem of sexual 
harassment at TSA can you say that you have worked on since you 
became the Acting Administrator. Aggressive.
    Mr. Pekoske. Right. There have been no specific cases that 
I have worked on, but that is not unusual. There would be cases 
that would be addressed----
    Ms. Wasserman Schultz. No, no. When you are aggressively 
addressing a problem----
    Mr. Pekoske. Right.
    Ms. Wasserman Schultz.--that means that you are taking 
comprehensive action----
    Mr. Pekoske. Right.
    Ms. Wasserman Schultz.--in a significant way to prevent it 
from happening. I am not talking about only going after and 
making sure that you hold accountable individuals who have 
committed that sexual harassment, but ensuring that it does not 
happen anymore and that you cutoff the pervasive culture that 
has allowed it. What have you been doing to aggressively 
address that, as you committed you were doing?
    Mr. Pekoske. Regular communications on any form of employee 
misconduct, to include sexual harassment, to include 
retaliation against whistleblowers. I mean, that has been a 
consistent message of mine.
    I would also highlight the fact that we are focused on 
leader development and making sure that leaders below my level 
take the same approach to these issues.
    Ms. Wasserman Schultz. None of that to me meets the 
definition of aggressive, and I look forward to hearing the 
information that you do not have available to us today for the 
record.
    Thank you, Mr. Chairman. I yield back.
    Chairman Cummings. Thank you.
    Mr. Massie?
    Mr. Massie. Thank you, Mr. Chairman, for having this 
important hearing.
    Mr. Pekoske, I want to compliment the TSOs at the CBG 
Airport where they have doubled passenger embarkments at that 
airport in the last five years. But I am always met with 
politeness, professionalism, and efficiency at that airport. I 
wish that were the case at all of the airports. I would not say 
that my tests are covert. I am probably recognized 25 percent 
of the time, but the other 75 percent of the time they have no 
idea who I am. And they keep the lines moving and they are 
still professional while being friendly.
    It would be great if DCA could follow the lead of CBG--the 
TSA agents there--where if you go through PreCheck, you cannot 
even get a gray bin to put your materials in. They insist you 
dump them all on the belt and let them ride through that 
machine and hope that it comes out the other end. And I would 
suggest that if we had more consistency in the screening across 
the airports, the lines would move faster because every time 
you throw in a kink like we are not going to give you a gray 
bin to put your materials in, that sort of slows things down.
    But in general, I want to thank the TSOs, and I think you 
are doing a good job there.
    Mr. Johnson, I want to give you a chance to expound a 
little bit on something you touched on in your opening 
statement about the covertness of the covert tests because 
unless these are covert tests, we have to question the validity 
of the information we get back. And as you said, you could 
over-represent the performance if the TSOs are somehow tipped 
off that testing is going on.
    Can you talk about the ways that they could find out or 
know about that the testing is going on and, therefore, sort of 
subvert the covertness of the covert tests?
    Mr. Johnson. Absolutely. And we flesh out more fully in our 
statement that we have submitted. And this is one of the areas 
where we do have a recommendation that we are hopeful will be 
closed relatively soon, I understand a month from now.
    But we did find cases where there were practices where the 
covertness was sort of not there and that the screeners were 
aware that there was a test underway. That was discovered 
because they recognized the screening bag. The same bag was 
used across locations in airports, and they will use that same 
bag. So they were familiar with the bag that was being used, as 
well as they were for me with some of the screeners.
    It is important to note that TSA uses sort of a field 
evaluation team that goes out and does the screening, and they 
also have a headquarters team. We found that the rate of 
success in terms of them catching things was much higher when 
the field folks, the folks at the local airports, were going 
out and doing it versus when they sent individuals from the 
headquarters to validate and check. The rate of success dropped 
in terms of catching some of the test cases.
    Mr. Massie. These people from headquarters would not be in 
plain clothes. They would be there assisting or something with 
the supervision?
    Mr. Johnson. They would be individuals that were not known 
screeners. I think what we discovered is that in some cases we 
looked at, the screeners were aware that they were having a 
test because they would see the same screeners come through.
    Mr. Massie. Got you.
    Mr. Johnson. And obviously, I guess by word of mouth, word 
would get around that there was a test. But when you sent 
unknown testers there, the rate of success dropped in terms of 
their ability to catch some of the items that were being 
attempted to pass through the screening systems.
    Mr. Massie. Are there other ways they could figure out that 
it is going on, that covert tests are happening?
    Mr. Johnson. Well, one of our recommendations was, 
obviously, to address those things. We discovered about having 
the known bags or the same screeners or even the presence of 
supervisors would tip them off in some cases. So we made a 
recommendation that TSA should sort of look at that whole 
process and assess it, and I believe that is something that the 
Administrator has underway to address.
    Mr. Massie. Mr. Pekoske, is that something that TSA is 
addressing?
    Mr. Pekoske. It sure is because we want our covert tests to 
be truly covert. And so what we have done is we have 
established reserve covert testing team that is drawn from 
people from airports around the country. So it is a little 
harder to figure out who is on this team. We give them some 
training as to what to do when you are a person running a 
covert test because for us, the results are not really valid if 
they know that they are being tested.
    The other thing that we do is we have a process called e-
TIP which is electronic threat image projection, which does not 
really involve a person to test an officer, but we 
electronically project a threat image as they are screening 
bags and we assess how well they are at identifying those 
threats. And that is systematic, and I think that is very 
reliable data.
    Mr. Massie. Do you agree, Mr. Johnson, that you feel TSA is 
addressing the covertness issue?
    Mr. Johnson. We look forward to getting the details and the 
documentation on that.
    Mr. Massie. Trust but verify.
    Mr. Johnson. Absolutely.
    Mr. Massie. Thank you very much.
    I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Connolly?
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
having this hearing.
    By the way, I am a happy customer. This weekend I flew from 
Baltimore to Providence for a family wedding and back from 
Providence to Baltimore, and all of the TSA people we 
encountered were professional and courteous and treated people 
with respect. And we thank you for that because that has not 
always been the case, and barking orders and treating people 
like cattle is not the way to get compliance. We can be civil. 
And my experience this weekend was a big improvement. So thank 
you.
    Administrator Pekoske, you were confirmed by the Senate to 
serve as the Administrator of TSA. Is that correct?
    Mr. Pekoske. Yes, sir.
    Mr. Connolly. But in February of this year, you were tapped 
to fill in for the vacant position of Deputy Secretary of 
Homeland Security. Is that right?
    Mr. Pekoske. It was April 11, sir.
    Mr. Connolly. But you were tapped to do that.
    Mr. Pekoske. Yes. I am actually the senior official 
performing the duties of the Deputy Secretary.
    Mr. Connolly. So do you have two part-time jobs?
    Mr. Pekoske. I have two jobs. Yes, sir.
    Mr. Connolly. You have two jobs.
    Mr. Pekoske. Neither of which is part-time.
    Mr. Connolly. So you are trying to do both.
    Mr. Pekoske. I am doing both positions. I am still the 
Administrator of TSA, but I have a very, very strong team at 
TSA.
    Mr. Connolly. I am focused on what you were confirmed for 
and what you are doing and all that.
    Mr. Pekoske. Yes, sir. Confirmed as the TSA Administrator.
    Mr. Connolly. So do you have a timeline for when you might 
return to your full-time confirmed position at TSA?
    Mr. Pekoske. No, sir, no timeline. I serve at the pleasure 
of the Secretary.
    Mr. Connolly. And my understanding is that at TSA, Acting 
TSA Deputy Administrator Cogswell is undertaking many of the 
responsibilities of de facto administrator while you are doing 
your job at Homeland Security. Is that correct?
    Mr. Pekoske. The day-to-day running of the agency is under 
Acting Administrator Cogswell's cognizance within a written 
agreement between she and I. There are certain things that I 
have reserved for decisions myself, and there are certain 
things that I have asked to be informed before decisions are 
made.
    Mr. Connolly. It seems to be a problem in this 
administration.
    Mr. Johnson, any views on that? Is it not--at least from a 
management org chart, is it not preferable to have Mr. Pekoske 
full-time committed to the job he was confirmed for?
    Mr. Johnson. Well, I will just refer to some of the past 
work GAO has done looking at high-risk issues. Particularly we 
talked about the DHS staffing issues and their having the right 
staff in the right place at the right time. It is always good 
to have someone in a position to be that leader whether or not 
someone acting in a capacity and not acting can do the same 
job. Ultimately, we would like to see a leader in place that is 
confirmed or someone that is in a position full-time.
    Mr. Connolly. Especially with an agency that is hardly 
without problems and challenges. It is a hard job. I mean, it 
is really a hard job. I mean, 440 airports, 2 million daily 
passengers screened, 5.5 million carry-on items, and 1.4 
million checked bags daily, and the stress of making sure 
nothing gets through, no bad guy gets through. So full time and 
attention, it seems to me is required and absolutely desirable, 
to your point, Mr. Johnson.
    Mr. Johnson and Mr. Bumgardner, let me ask you. The ranking 
member talked about the crisis at the border. Of course, for 
some of us the crisis is children died there because of neglect 
and the conditions under which people are being held.
    I guess it seems counterintuitive that we would actually 
use TSA people to go down to the border. What is it they are 
going to do down there? What is the expertise they bring to the 
border, to protecting or securing the border?
    Mr. Johnson. I think the Administrator is best in a 
position to answer that.
    Mr. Connolly. Mr. Pekoske, what is the expertise TSA 
personnel bring? And given the volume and the challenges you 
face, does it not take away from your mission? I mean, does it 
not kind of dilute your ability to do your job?
    Mr. Pekoske. Sir, it does not take away at all at this 
point from our security mission. We have a relatively small 
number, given the size of TSA, 63,000 people, and we have a 
total of 350 or 400 people assigned to southwest border 
operations. So that percentage cannot possibly affect in my 
view the provision of security.
    Mr. Connolly. I am sorry. I am going to run out of time.
    What about the proposed diversion of $232 million from your 
budget to border operations? Did we give you $232 million 
extra? Did we make a mistake? We overestimated your budget 
because you did not need a quarter of a billion almost?
    Mr. Pekoske. No, and every agency needs the resources that 
they have been appropriated. But we do have an emergency 
supplemental for humanitarian purposes that has been up here 
for six weeks that will address a lot of the issues at the 
southwest border, and I would urge consideration and passage of 
that supplemental.
    Mr. Connolly. Well, Mr. Chairman, my time is up, but I sure 
would love to get Mr. Johnson's and Mr. Bumgardner's take on 
that, if you will allow it.
    Chairman Cummings. Your time has expired, but they may 
answer it quickly.
    Mr. Connolly. I thank the chair.
    Mr. Bumgardner. I would agree with Mr. Johnson. It is a 
complex organization. I do not have anything further to add to 
that.
    Chairman Cummings. Mr. Johnson?
    Mr. Johnson. In terms of, obviously, the budget decisions 
are for the administration of the agency to make those 
determinations and Congress to make that decision.
    I would like to note, though, that we have looked at in the 
past TSA's staffing model for its TSOs, and there was a 
shortfall, a gap there in terms of what was really needed based 
on that staffing model.
    Chairman Cummings. Thank you very much.
    Mr. Higgins?
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Pekoske, due to the crisis at our southern border, 
Customs and Border Protection, ICE, and Health and Human 
Services have been overloaded with processing migrants, and DHS 
has asked DHS-wide for volunteers to assist at the border. Is 
that correct?
    Mr. Pekoske. Yes, sir.
    Mr. Higgins. Is that a process that has taken place before, 
for instance, during emergencies, hurricanes, other natural 
disasters, et cetera?
    Mr. Pekoske. Yes, sir. It took place in Sandy in 2012, 743 
people; in Harvey, Irma, and Maria in 2017, 885 people.
    Mr. Higgins. Yes, sir. And is there an online means by 
which a DHS employee across the Department can volunteer for 
services in the field?
    Mr. Pekoske. Yes, sir.
    Mr. Higgins. And regarding the agents that have volunteered 
from TSA to serve in the field on the border in protection of 
their nation's sovereignty, has that impacted TSA's ability to 
carry out its mission?
    Mr. Pekoske. It has not.
    Mr. Higgins. Thank you.
    One of the challenges that has been noted for TSA is 
retention of personnel. Is that true?
    Mr. Pekoske. That is true.
    Mr. Higgins. Would you concur that for an agent working 
within any static environment, if they are driven by their 
fervor to serve in the field, to speak with their family and 
say I want to volunteer to serve in the field on the border and 
they are selected, if they are allowed to serve on a voluntary 
basis, would you believe that would help with the retention of 
that agent or deter his retention?
    Mr. Pekoske. Sir, it would significantly help, and most of 
the people that we send to the border ask for an extension.
    Mr. Higgins. Thank you very much, sir, for clarifying that.
    Regarding the vulnerabilities, it has been stated by my 
colleagues that of the nine vulnerabilities, none have been, 
quote/unquote, formally resolved. Another colleague across the 
aisle stated nothing is done. Is there a difference between 
nothing is done and formally resolved versus addressed or 
mitigation efforts in progress?
    Mr. Pekoske. Yes, sir, there is a big difference. There is 
not a single recommendation that has had no action taken toward 
it. The vast majority of the recommendations have been 
resolved, but not closed. There are only five or six that 
remain unresolved which, considering the number of 
recommendations, in my view is a relatively small number.
    Mr. Higgins. Thank you.
    My research shows that of the nine vulnerabilities assessed 
by GAO, one has been closed by a policy change. Another eight 
have been assigned to a vulnerability owner. Would you explain 
to America, please, what exactly is a vulnerability owner? How 
are they chosen and qualified in the mitigation effort?
    Mr. Pekoske. Sir, a vulnerability owner is a senior 
executive within TSA whose job purview includes correcting that 
vulnerability. I think it is important to assign an individual 
by name to address that so that there is accountability.
    Mr. Higgins. And you had stated earlier quickly that you 
expect to have these vulnerabilities closed through the 
mitigation process that is ongoing right now by the end of this 
calendar year?
    Mr. Pekoske. Yes, sir, for those vulnerabilities from 
fiscal 2017----
    Mr. Higgins. Okay.
    Moving on, I have a question about Federal air marshals. It 
has been assessed that the quote was that Federal air marshals 
are, quote/unquote, OIG stated, of questionable contribution to 
aviation and transportation security. I will challenge that 
assessment. The OIG essentially stated that because of IEDs, 
improvised explosive devices, versus traditionally understood 
hijacking efforts that the model of Federal air marshals would 
be questionable to aviation security. I believe that is a fair 
assessment of their assessment.
    At 36,000 feet and 575 miles per hour, if a well trained, 
determined terrorist managed to open an emergency exit door on 
an aircraft, what would happen to that aircraft?
    Mr. Pekoske. That would be catastrophic to the aircraft, 
sir.
    Mr. Higgins. And the process of stopping that attempted 
effort by someone determined to do so, if a Federal air marshal 
was on a plane as a passenger, would you feel better?
    Mr. Pekoske. I would.
    Mr. Higgins. Thank you very much.
    Moving to a question regarding your testing, covert 
testing, my final question. Does your covert testing include K9 
teams?
    Mr. Pekoske. Yes, it does.
    Mr. Higgins. In what way? In the remainder of my time, 
please answer that.
    Mr. Pekoske. Yes, sir. We covertly test K9 teams in the 
performance of their duties. We just completed a test not too 
long about. We are about to retest. We have made some 
adjustments, and we are about to retest.
    Mr. Higgins. So regarding the K9s and the covert testing 
means sometimes disclosed, is there any way for you to tell the 
K9 animal that there is a covert test going on or does it just 
perform?
    Mr. Pekoske. The K9 just performs, but the handler can get 
tipped off.
    Mr. Higgins. Good point. Thank you, sir.
    Mr. Chairman, I yield.
    Chairman Cummings. Mr. Lynch?
    Mr. Lynch. Thank you, Mr. Chairman.
    I want to thank the witnesses for your help with our work.
    So I am reading an article here from ``Travel'' magazine, 
``A Summer from Hell is Coming to U.S. Airports.'' And it talks 
about the fact that from June 1st to Labor Day, we are going to 
have about 257 million passengers flying from U.S. airports and 
into U.S. airports.
    Meanwhile, we have diversion of resources to the southern 
border. We have a lapse or a lag in terms of training up TSOs, 
and we also--I sit on the Transportation Committee. I am on the 
Aviation Subcommittee, and we have got this problem with the 
737 MAX where those aircraft will not be available.
    So from what I am hearing here--and I have been at this a 
while--we are in a very, very bad place right now 
transportation-wise especially with passenger screening and 
luggage screening in the United States. And there is nothing 
that you are telling me here today that leads me to believe 
otherwise.
    I do want to point back to--we had other hearings on Red 
Team testing where we had people from--I think it was Gene 
Dodaro or Mr. Roth. We had Red Teams go in, so-called Red 
Teams. And they would try to get through the TSA screeners with 
weapons. Some of it is classified, but I will tell you they 
taped 38 caliber weapons on their legs and stuffed small 
machetes into arm casts and just walked through. The failure 
rate of our screeners was horrific. I will not say a number 
because that is classified. It was horrific. And I am not 
hearing any changes here. I know you have done 14 different Red 
Team reports. I am concerned.
    Mr. Johnson, I appreciate that you are acting in this 
capacity, and you are doing your best. But I do not think that 
TSA in this context should be allowed to inspect themselves or 
to judge their own competencies. And I would just caution you 
all to make sure that we have independent agencies measuring 
the efficiency and effectiveness of our TSA screeners because I 
am greatly worried.
    I do not want anybody to say we did not see this coming 
because we saw this coming. Our screening at our U.S. airports 
is deplorable. Now I am hearing that the PreCheck process as 
well--now the lines at PreCheck are longer than the regular 
lines because everybody is on PreCheck. So if we got problems 
with PreCheck, that is something that we really need to get at 
and get at it in a hurry.
    And, Mr. Johnson, you mentioned in your opening statement a 
couple of times where you tested and the results were, quote, 
not such good news, close quote. If I ever came home with a 
report card and told my mother it was not such great news, she 
would want to know much, much more about that. So I want to 
know exactly what the details are on the degree of failure that 
we continue to see in TSA.
    I know, Mr. Bumgardner, you mentioned that we have 14 
reports that you have done. I mean, why are we having such a 
problem making sure that people getting on aircraft do not have 
weapons? What is the problem there? It would seem that 
technology--and look, I was elected on September 11, the day of 
the attacks. So I was here at the birth of Department of 
Homeland Security. It was a big issue, and we still do not have 
it right. We armored the cockpits. Yes, that was good. But we 
still have dangerous cargo and dangerous people getting on 
aircraft on a regular basis, and we cannot seem to stop them. 
What is the problem? What is stopping us from doing this?
    Mr. Bumgardner. It is perplexing to us too, Congressman. As 
good as the technology is and it does continue to improve, a 
lot of this comes down to human factors. And we mentioned 
earlier about a TSO shortage, and that is certainly a concern 
for us, particularly in light, as you say, of the increased 
travel this summer. Training, policy and procedures, those are 
all issues that remain concerns for us.
    Mr. Lynch. Are we paying them enough? Is it the fact that 
there is a big turnover with TSOs?
    Mr. Bumgardner. There is a turnover in the TSO ranks, and 
that is an issue that was discussed in a previous hearing, and 
I think that is hotly debated up here.
    Mr. Lynch. Okay. Thank you for your time.
    Mr. Chairman, I yield back.
    Chairman Cummings. Mr. Roy?
    Mr. Roy. Thank you, Mr. Chairman.
    Mr. Pekoske, given that TSA volunteers are being sent to 
the border, is it safe to say there is a crisis on our border?
    Mr. Pekoske. Yes, sir.
    Mr. Roy. When colleagues of mine ask what TSA would be 
doing at the border, what their role would be at the border, 
might I ask you if CPB's mission--if their mission is to house 
even temporarily people in facilities, especially when those 
facilities are not designed for housing people, is that their 
mission?
    Mr. Pekoske. Yes, sir. And that is the critical issue. It 
is the facilities are not designed for what they are being 
used.
    Mr. Roy. And would it be safe to say that CBP's primary 
mission is to secure the border, not necessarily house people?
    Mr. Pekoske. Yes, sir. And our goal is to free up the CBP 
officers to be able to do that mission.
    Mr. Roy. Okay.
    Is CBP overwhelmed?
    Mr. Pekoske. It is.
    Mr. Roy. Completely overwhelmed.
    Mr. Pekoske. Totally.
    Mr. Roy. When did the supplemental come to the Congress?
    Mr. Pekoske. About six weeks ago, sir.
    Mr. Roy. And has it been acted upon yet?
    Mr. Pekoske. It has not.
    Mr. Roy. Okay.
    Did you hear recently of an adult and three children who 
were found dead at the border two days ago?
    Mr. Pekoske. Yes, on Friday.
    Mr. Roy. In whose custody were they?
    Mr. Pekoske. They were in Border Patrol custody. Actually 
when they came across the border, they passed away before they 
came into Border Patrol----
    Mr. Roy. Right. Border Patrol found them. Right?
    Mr. Pekoske. Right.
    Mr. Roy. So they were in the custody of probably the 
Reynosa faction of the Gulf cartel or coyotes employed by that 
entity.
    Mr. Pekoske. They were, and the Border Patrol searched for 
two days to find everybody else.
    Mr. Roy. When CBP is accused of kids dying in their 
custody, are you aware that in many of these cases, it is 
children that are being given lifesaving treatment either at 
the facilities or at hospitals because they are injured or 
sick?
    Mr. Pekoske. Yes, sir. And they are all medically screened 
before they come in, too.
    Mr. Roy. Right. Is it not often the case that they are in 
sometimes bad shape after the journey and after being abused by 
cartels along the journey because this country refuses to 
secure its border?
    Mr. Pekoske. That is completely correct.
    Mr. Roy. Is it helpful--is it helpful--for the task at hand 
when people say the following? Speaker Pelosi called the 
situation a fake crisis at the border. Senate Minority Leader 
Chuck Schumer called it a crisis that does not exist. Majority 
Leader Steny Hoyer said there is no crisis at the border. House 
Democrat Caucus Chairman Hakeem Jeffries said there is no 
crisis at the border. House Foreign Relations Committee 
Chairman Eliot Engel called the situation a fake crisis at the 
border. House Judiciary Committee Chairman Jerry Nadler said 
there is no crisis at the border. Representative Wasserman 
Schultz, former Chairwoman of the Democratic National Committee 
and a colleague on this committee, said we do not have a border 
crisis. Representative Daggett called the situation a phony 
border crisis. Representative Earl Blumenauer called it a fake 
crisis at the border. Representative Sanford Bishop called it a 
crisis that does not exist. Representative Jesus Garcia, Jose 
Serrano, Suzanne Bonamici, Donald Beyer, Pramilla Jayapal, and 
Adriano Espaillat, called it a nonexistent border crisis. 
Former Congressman and current California AG Xavier Becerra 
said there is no border crisis.
    Is that helpful to identifying and establishing that there 
is in fact a crisis at the border, for Congress to act 
appropriately and responsibly to deal with the crisis, provide 
necessary materials and support to deal with the crisis and to 
actually be responsible in our job to secure the American 
people and provide for safety and wellbeing of the migrants who 
seek a better life in this country? Is that helpful to have all 
of those quotes and statements being made over the last four or 
five months?
    Mr. Pekoske. Not only is not helpful, it is not correct.
    Mr. Roy. And to the extent that it is not helpful, do you 
think it has colored perceptions about what is actually 
happening at the border over the last four or five months?
    Mr. Pekoske. I think it has.
    Mr. Roy. And has that made it difficult to get the 
resources necessary to do the job for Border Patrol, for ICE, 
and for everybody dealing with this crisis?
    Mr. Pekoske. It has. And the emergency humanitarian 
supplemental will address those issues.
    Mr. Roy. And is it safe to say that has an impact when you 
are having to deal with TSA and deal with the questions of 
whether you are sending 300 or 400 or 500 volunteers to be able 
to support this because we have not done our job in Congress to 
actually provide the resources necessary to do the job?
    Mr. Pekoske. Yes.
    Mr. Roy. Thank you, Mr. Pekoske.
    And I would yield to Mr. Jordan.
    Mr. Jordan. I yield back.
    Chairman Cummings. Ms. Tlaib?
    Ms. Tlaib. Thank you so much, Chairman.
    Administrator, I have a question for you. Would a wall have 
prevented the death of the family?
    Mr. Pekoske. I do not know the specifics to be able to 
answer that question fully.
    Ms. Tlaib. So I think it is very clear that I think you 
mentioned the need for immigration reform to fix this broken 
immigration system. I think that needs to be the focus rather 
than both sides yelling out there is a crisis. I think the 
humanitarian crisis is real. The number of children that are in 
our care and increasingly becoming very aware that it is 
becoming a public health crisis as well.
    I am going to take this in a different direction, if I may, 
Chairman. I want to talk about PreCheck recommendations.
    The PreCheck program is a program that enables U.S. 
citizens, as we all know, and lawful permanent residents, green 
card holders, to receive expedited checkpoint screening if they 
provide their personal biographic information, documents, 
fingerprints to TSA, and are cleared for such screening after a 
background check is completed. Is that correct?
    Mr. Pekoske. That is correct.
    Ms. Tlaib. So are you familiar with CLEAR?
    Mr. Pekoske. I am.
    Ms. Tlaib. So I want you to know for a while I have been 
going and I kind of watch the process of CLEAR and realized and 
went to their Website and it says, instead of using 
identification documents, CLEAR uses biometrics, eye scans, and 
fingerprints to confirm identity. CLEAR codes the biographic 
information and stores the data to be retrieved supposedly for 
future flight checks. Once the--it is in-person registration, 
as you know, Administrator, and gets completed and then CLEAR 
pass can be used. The cost for our residents is about $100 
annually, and I think they pay a little bit more I believe when 
they first register.
    I have concerns about this. This is a private company. 
Correct?
    Mr. Pekoske. It is.
    Ms. Tlaib. And they are stepping in, doing their version of 
a pre-TSA check. Correct?
    Mr. Pekoske. No. They are doing identity verification, but 
it is not PreCheck.
    Ms. Tlaib. So when they put the information in there, from 
what I understand from their Website, of course, they are going 
to say, you know, CLEAR's privacy policy seems to indicate that 
they cannot sell the material or they are not going to share 
the material and so forth.
    But what is very interesting, Administrator--and again, 
this is also for Director Johnson because I do not know does 
GAO look at CLEAR's airport security process or not. This is 
why it is concerning.
    So the company shut down unexpectedly earlier this year for 
a day because it so-called, quote, ran out of money and no one 
seems to know the root cause or how safe the data was during 
that time.
    And then it goes on to say nothing in the privacy policy 
explicitly prohibits a data collection company from purchasing 
CLEAR just for its data on what is likely or largely well-
heeled clientele.
    This is very concerning because even though, obviously, 
maybe in their contract it says that they cannot sell or share 
the data, where does it say that our information is still 
protected? Can they sell it to another company? Can they 
transfer that contract to yet another company? And again, this 
is for-profit companies, private, outside companies, that are 
coming in gathering the data and by them being there at the 
airport next to the pre-TSA line and cutting the--we have kind 
of given some sort of blessing and credibility to this company 
to do that practice.
    And so what division approves this outside contract? And 
what kind of oversight are we having in regards to this 
process?
    Mr. Pekoske. CLEAR is what is called a registered traveler 
company.
    Ms. Tlaib. Yes, I know.
    Mr. Pekoske. And the registered traveler program was 
established by Congress. So that program was established by 
Congress. It is being implemented as Congress had intended.
    The CLEAR organization is not under contract with TSA. It 
is under contract with individual airports. So there is no 
contractual relationship between TSA and CLEAR. Our 
relationship to CLEAR is via the airports through the airport 
security program, which we put in place at each airport around 
the country.
    Ms. Tlaib. So is there--and I do not know Director Johnson 
or maybe the Administrator can answer. Do you see any security 
risks of the data being collected and being cleared through--
you know, people are being--the cleared process that they have 
been using to get expedited through the line?
    Mr. Johnson. Well, we have looked at the PreCheck program 
in the past. We have not really looked at the CLEAR program. I 
will defer to the Administrator.
    Mr. Pekoske. The other thing I would add, ma'am, is that we 
reviewed CLEAR's data security protocols, and we held them to 
the NIST standard, the National Institute of Standards. And we 
were satisfied that their data integrity met those standards.
    Ms. Tlaib. You know, Chairman, if I may. I think it is 
really critical the GAO includes this in their review and 
making sure we hold them accountable because the residents and 
the people that are being registered and cleared do not know 
this is not a government agency. They are not told that. They 
think that this is an extension of TSA, Administrator. And you 
probably already know that. And they are making money off of 
our residents, and we need to make sure that their data and 
information is protected.
    Chairman Cummings. Thank you very much.
    Mr. Gibbs?
    Mr. Gibbs. Thank you, Chairman.
    Thank you, Mr. Pekoske, for being here and the other 
witnesses also.
    I will just state right off the bat I fly virtually every 
week, and I have very good experience going through TSA almost 
100 percent of the time. So it is great.
    I want to go here--I have an article and a report that TSA 
has been violating their own policy regarding to migrants who 
are released from Federal custody and put on flights not having 
the required documentation. And there is a list here of 15 
different things, and it only takes one. You know, obviously, 
one is a driver's license, passport, permanent residence card, 
border crossing card, a federally recognized tribal issued ID 
card, just to name a few of the 15. According to this article, 
this was documented by several Department of Homeland Security 
officials. So I will give you a chance to answer this in a 
second.
    But also I want to relate it to--we talk about--my 
colleague, Congressman Hice, talking all the people coming 
across the border--we apprehended over 144,000 in the month of 
May alone--and securing our border. But then allegedly we are 
putting people that we are catching on these planes to disperse 
them throughout the country. And you are shaking your head yes. 
So I assume that must be happening. Correct?
    And is it also happening because the system obviously we 
know is overwhelmed. But also, there was a 2015 court ruling 
that bars ICE from holding these families more than 20 days.
    And so I guess one of my questions I am asking you--so we 
are putting migrants, people who come across the border 
illegally, putting them on airplanes without documentation, we 
do not really know who they are, flying them all over the 
United States. Is that correct?
    Mr. Pekoske. No, sir. It is not correct. They are flying in 
the United States usually to reunite with family members or to 
go to other shelters that are throughout the country.
    What they present is what is called the NTA, notice to 
appear, which is a U.S. Government document that provides them 
notice to appear before a judicial process to further their 
immigration claim. The notice to appear is not a form of 
identity verification. Their identity is verified by either a 
CBP officer or an Immigration and Customs Enforcement officer 
before they go through screening. When they go through 
screening, they get enhanced screening as they go through that 
process. So we have a Federal officer that validates their 
identity, and we also give them enhanced screening going 
through with these----
    Mr. Gibbs. Now, of those who appear--how many actually 
appear when they are supposed to appear?
    Mr. Pekoske. About 10 percent, sir.
    Mr. Gibbs. So 90 percent just vanish into our country.
    Mr. Pekoske. They just do not appear, sir.
    But from an aviation security standpoint, we feel that we 
are maintaining aviation security at the levels we want to 
because we know who they are and they are getting enhanced 
screening.
    Mr. Gibbs. You are saying that you are 100 percent 
confident that we are identifying them at the border before we 
are putting them on planes. What kind of identification would 
they have? How do we identify them to know who they are?
    Mr. Pekoske. Sir, they go through a very thorough interview 
process with either Customs and Border Protection or 
Immigration and Customs Enforcement or the Border Patrol.
    Mr. Gibbs. Okay. It is just a little concerning because we 
are asking all Americans to have one of these documentation to 
get on planes. That is one thing I raise a little bit of a red 
flag about it. I feel better that you are saying that, but I 
think it is--we are kind of helping people abating people--
abiding people that could get throughout the country on 
taxpayer expense I assume.
    Mr. Pekoske. Yes, sir. Generally it would be funded by the 
U.S. Government. Sometimes it is funded by a not-for-profit 
organization, though, as well.
    Mr. Gibbs. And 90 percent of them do not show up for their 
court date.
    Mr. Pekoske. Statistically, yes, sir.
    Mr. Gibbs. That is a problem.
    I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman.
    Thank you all for being here today.
    I wanted to ask Mr. Johnson and Mr. Bumgardner I guess 
primarily if you could maybe give your theory as to why it has 
been so hard for the agency to respond to these 
recommendations, the deficiencies that have been cited because 
what jumps out at me when I look at those numbers is that seems 
like an outlier. And I do not know whether there is something 
going on in the culture of the organization that is preventing 
them from moving as quickly to address the things that you have 
pointed out in your reports.
    Where is the breakdown here? It does not make sense because 
the things you are speaking to are, obviously, of critical 
importance, and I would just have thought there would be more 
compliance happening or more progress in responding to these 
recommendations. And I am asking you to help me understand 
because presumably--and you can tell me this. You have done 
these kinds of inquiries in other agencies and so forth. You 
have seen how agencies can respond, et cetera. So enlightening 
me, if you can, on why it seems to have been such a problem 
here.
    Mr. Johnson. I will take the first stab at that.
    Department-wide I would sort of give credit to DHS. DHS has 
been pretty proactive in trying to address many of our 
recommendations we made. They have a pretty high response rate. 
Over 70-some percent of the recs that we have made over the 
last seven-eight years have been addressed or closed as 
implemented in terms of the ones that you go back to our four-
year criteria.
    In this particular case on the covert testing where we talk 
about the nine vulnerabilities or issues that were raised, it 
went toward that management process panel. The breakdown there 
was that it took too long in some cases to assign those to an 
accountability person to take care of, and then they lingered 
in the system for over a year to over three years before action 
has been taken.
    The promising thing is that now that there is management 
attention, which we have talked about, and that they are 
establishing milestones and timeframes for progress, as well as 
assigning someone to monitor that, we think that there is some 
promise that that will be taken care of. A month from now, we 
are hoping that we will be able to look at everything that we 
have made in terms of the covertness being addressed, and later 
in the year, as the Administrator noted, the rest of the 
recommendations that we have made with respect to some of the 
TSA operations for aviation security--that we hope that those 
things will be taken care of. We will proactively monitor those 
and work with DHS and TSA to do so.
    Mr. Sarbanes. So you are describing what happened, i.e., 
there was not an assignment and then once there was an 
assignment, things lingered, et cetera. But why were they 
lingering that long? In other words, can you trace this back to 
a couple of individuals that had responsibility that just did 
not carry them out and therefore you can isolate the problem 
there as opposed to saying it was a more broad cultural issue 
in terms of responding?
    Mr. Johnson. Just to be fair, some of these are complex 
challenges and issues that need to be addressed. As the 
Administrator mentioned, some may involve acquisition, may 
involve changing policies and getting that through, retraining 
staff, things of that nature. So some may take more time to get 
resolved.
    Mr. Sarbanes. Any other comments?
    Mr. Bumgardner. Yes, sir. I would just like to provide some 
perspective. Since 2014, we published 24 reports with 136 
recommendations. 39 of those recommendations remain open. And 
like Mr. Johnson indicated, some of the reasons for why those 
recommendations remain open include the technology does take 
time to develop. There have been some changes in priorities and 
leadership. And oftentimes we are pretty tough graders. We want 
to make sure there are sufficient----
    Mr. Sarbanes. Well, let me actually stop you there because 
I was just about to ask you for a grade. So giving it all the 
fair context that you are suggesting here, in terms of the 
Department's response on these particular sets of issues--or 
the agency's response, what is the grade that each of you would 
give to them right now? I understand that I am asking you to 
maybe quantify unfairly, but give them a grade.
    Mr. Johnson. Well, I mean, the appropriate thing for me to 
say is that we look at our recommendations and look for them to 
be closed within a four-year window. And as I mentioned 
earlier, the Department as a whole has a pretty high rate of 
closure within that four-year window of about 76 percent or so, 
one of the highest among many of the Departments that are out 
there. TSA similarly. I think we made roughly about 85 
recommendations or so, and close to half of those have been 
already closed. So I think there is more progress that TSA can 
make, and there is promising news that the Administrator now is 
paying attention to that and look forward to sustained 
management attention to make sure things get done.
    Mr. Sarbanes. Okay.
    Mr. Bumgardner. I think Charles saved me. I hesitate to 
give a grade, but I would say this. Prior to 2015, the grade 
would not be very high. Since 2015, with Administrator 
Neffenger and now with Administrator Pekoske, I think there is 
a renewed attention toward our oversight and the willingness to 
address our recommendations in a timely fashion.
    Mr. Sarbanes. Thank you.
    I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Jordan? Oh, I am sorry. Mr. Grothman?
    Mr. Grothman. Mr. Pekoske, thank you for being here. I 
think the crisis at the border is maybe the greatest crisis 
this country has faced I suppose since World War II as far as 
risk to our future as a republic.
    How many folks do you have on the border right now? How 
many folks does TSA have on the border?
    Mr. Pekoske. Sir, as of today, 349.
    Mr. Grothman. How many open Border Patrol positions do we 
have?
    Mr. Pekoske. I do not have that number off the top of my 
head, but we do have a good number of open----
    Mr. Grothman. A while back, they told me it was 2,000.
    Mr. Pekoske. That sounds about right.
    Mr. Grothman. There are a variety of things we are trying 
to do. A couple weeks ago, President Trump--or a week ago--cut 
a deal with the Mexican Government. Have you seen any drop 
since then on the per-day people coming across the southern 
border?
    Mr. Pekoske. We are seeing real progress with the agreement 
with Mexico. They are stationing national guard and military 
folks at their southern border, and we are seeing a slight 
drop-off.
    Mr. Grothman. Okay. Define ``slight drop-off.''
    Mr. Pekoske. Well, if I look at the number of people that 
are in custody, we were at a high of almost 20,000 people 
between the Border Patrol, CBP, and ICE. Today we are somewhere 
on the order of 12,300. So that is good progress.
    Mr. Grothman. And how many people do we have coming across 
the border every day?
    Mr. Pekoske. Well, in the month of May, as you mentioned, 
we had about 144,000 people. So far this year, 676,000.
    Mr. Grothman. How many so far do you keep track on a day-
by-day basis in June?
    Mr. Pekoske. Yes, sir. I get a report, though, every month. 
So I do not have a----
    Mr. Grothman. So they do not tell you how much came in the 
last week.
    Mr. Pekoske. I could easily find that out.
    Mr. Grothman. Okay. Well, that would be of interest.
    Has DHS coordinated with nations other than Mexico as far 
as dealing with this crisis?
    Mr. Pekoske. Yes, sir. The Northern Triangle countries of 
Guatemala, El Salvador, and Nicaragua.
    Mr. Grothman. Where are people coming across from right 
now?
    Mr. Pekoske. Coming across from those three Northern 
Triangle countries into Mexico and----
    Mr. Grothman. Correct. When I was down there, I was on the 
Laredo sector. They told me at least there there were countries 
far beyond Central America increasingly coming into this 
country. Is that true?
    Mr. Pekoske. That is true and that is because the word is 
out that you can get through the border particularly if you are 
with a child or a family.
    Mr. Grothman. So in other words, we are encouraging people 
to bring a child with them to come across.
    Mr. Pekoske. Yes, sir. We call that a pull factor.
    Mr. Grothman. Okay.
    When I was down there, we were told--I think there were 
14,000 unaccompanied minors coming across the border in May. 
How many accompanied minors are coming across?
    Mr. Pekoske. So in family units in May, sir, 84,542.
    Mr. Grothman. How many children, though?
    Mr. Pekoske. Unaccompanied children, 11,000.
    Mr. Grothman. How many accompanied children?
    Mr. Pekoske. I do not have that figure in front of me, but 
I can get it for you.
    Mr. Grothman. Okay.
    President Trump ran saying he was going to build a wall. Do 
you know how many miles of we have built in the last two and a 
half years since he has become President?
    Mr. Pekoske. Sir, I think we are close to 50 miles of wall.
    Mr. Grothman. 50 miles.
    Mr. Pekoske. And I would add too that the wall is important 
in that it brings folks trying to cross our border into the 
ports of entry, which is really important. That is the legal 
way to enter the country.
    Mr. Grothman. I have not talked to a Border Patrol guard 
who did not want a wall, did not feel we needed a wall. In your 
new position, have you run into any Border Patrol guards who 
did not feel we needed a wall?
    Mr. Pekoske. No, sir, particularly when you are onsite and 
when you are walking the border yourself, everybody will point 
to the value of having a wall, again to make the crossings of 
the border more discrete.
    Mr. Grothman. Okay. Maybe things have changed since I was 
down there. As far as Customs is concerned, which countries are 
they finding people coming across from?
    Mr. Pekoske. We are finding people coming across from Cuba, 
some other Caribbean nations, and some South American nations 
and occasionally some folks from Europe.
    Mr. Grothman. Okay. That is what Customs finds?
    Mr. Pekoske. That is what Customs and Border Patrol find. 
Yes, sir.
    Mr. Grothman. I think they are entirely different 
populations. Is that true?
    Mr. Pekoske. The folks that Customs find would be the folks 
that come through the ports of entry. Border Patrol----
    Mr. Grothman. Correct, and there is a significant 
difference in the countries they are both catching. Correct?
    Mr. Pekoske. There is.
    Mr. Grothman. Yes. Could you rattle off like the major 
countries for Border Patrol and the major countries for 
Customs?
    Mr. Pekoske. Yes, sir. For Border Patrol, it would be--I 
would think Cuba would be one of the larger populations. And 
when I was down there four weeks ago, I saw a good number of 
Cuban migrants at Border Patrol stations.
    From the Customs perspective, mostly I would say those 
Northern Triangle countries wanting to come through the ports 
of entry.
    Mr. Grothman. That is exactly the opposite of what I heard 
when I was down there. Are you sure about that?
    Mr. Pekoske. No. I can verify it.
    Mr. Grothman. I would check. We were told coming across 
from Customs was very few people in the Central American 
countries.
    50 miles so far. Where was that 50 miles constructed?
    Mr. Pekoske. Mostly in the Rio Grande Valley.
    Mr. Grothman. I will give you one other question. There is 
a lot of wall down there right now. How many miles were 
constructed under President Clinton and President Obama and 
President Bush?
    Mr. Pekoske. Sir, I do not know. I do not have that 
information.
    Mr. Grothman. Why do you not get us that?
    Chairman Cummings. The Congressman's time have expired.
    Mr. Grothman. Thanks much.
    Chairman Cummings. Thank you very much.
    Mr. Jordan?
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Pekoske, let me just come back. You are not only the 
Administrator for TSA. You are Acting Deputy Secretary of DHS. 
Is that right?
    Mr. Pekoske. Yes, sir. I am the senior official performing 
the duties of the Deputy Secretary.
    Mr. Jordan. How long have you worked there?
    Mr. Pekoske. I have worked in DHS in that position since 
April 11th.
    Mr. Jordan. No. How long you worked total at DHS.
    Mr. Pekoske. Total at DHS? Well, I was in the Coast Guard 
for 33 years, and then I have been in TSA for almost two.
    Mr. Jordan. I appreciate your service.
    Just to reiterate where we have been a lot this hearing. 
There is a crisis on the border. Is that right?
    Mr. Pekoske. Without a doubt.
    Mr. Jordan. Without a doubt.
    Enough fentanyl a few months ago seized in one drug 
seizure--in one drug seizure--to kill 57 million Americans.
    How many apprehensions last month alone?
    Mr. Pekoske. Apprehensions last month alone are about 
144,000.
    Mr. Jordan. What was the number you gave for the year?
    Mr. Pekoske. For the year so far, this is this year so far, 
676,315.
    Mr. Jordan. That is way above any previous year. Is it not?
    Mr. Pekoske. Yes, sir.
    Mr. Jordan. 60,000 kids in 40 days I think also happened.
    So this is certainly a crisis, and when there is a crisis, 
is it not sort of all hands on deck?
    Mr. Pekoske. All hands on deck just like in a hurricane 
response.
    Mr. Jordan. Just like anything else.
    Mr. Pekoske. Yes, sir.
    Mr. Jordan. And so TSA has responded, and you have said to 
your agents, do you any of you want to volunteer and deal with 
this crisis. And I think you said what? 349 have accepted that 
challenge and are down there helping.
    Mr. Pekoske. Yes, sir. That are down there now.
    Mr. Jordan. What are they doing?
    Mr. Pekoske. They are doing a whole myriad of things. We 
have Federal air marshals that are providing law enforcement 
presence down there. So that basically frees up a Customs 
officer or a Border Patrol officer to be on the border. We also 
have TSOs down there that are providing logistics support to 
the Border Patrol stations. This could include providing meal 
service, providing just general supplies to people, and helping 
them with traffic flow.
    Mr. Jordan. And all the good work that they are doing down 
there, they are there because, A, there is a crisis, as we have 
established. But is it also because you mentioned just in the 
previous question that there are 2,000 openings in Border 
Patrol right now?
    Mr. Pekoske. Yes, sir. You know, it is hard to fill the 
positions. The Border Patrol and Customs and Border Protection 
have reallocated their own resources from throughout the 
country down to the southwest border.
    Mr. Jordan. Why are there 2,000 open spots? Is there a 
frustration for the lack of the government, particularly the 
Congress, dealing with the situation? Why are there 2,000 
openings in Border and Customs?
    Mr. Pekoske. So I would put it in context. I think the 
Border Patrol and Customs have actually a pretty good success 
in hiring more people than are leaving those agencies. And that 
reverses the trend that had been going on for a good number of 
years where more people were leaving than coming on board. And 
I think it is people seeing the value of the mission and 
wanting to contribute to the security of the country.
    Mr. Jordan. To deal with this crisis, would changing the 
Flores law help?
    Mr. Pekoske. It would.
    Mr. Jordan. Would fixing our asylum law help?
    Mr. Pekoske. Immeasurably.
    Mr. Jordan. Would a wall help?
    Mr. Pekoske. A wall is helping and will continue to help.
    Mr. Jordan. And certainly the supplemental would help.
    Mr. Pekoske. The supplemental is critical to us.
    Mr. Jordan. How about putting troops on the border? Would 
that help as well?
    Mr. Pekoske. We do have significant support from the 
Department of Defense already in a support or logistics role, 
and that has been a big, big help.
    Mr. Jordan. If troops are on the border, would you need to 
send the 349 TSA agents there?
    Mr. Pekoske. We would perhaps need to send fewer, but you 
would want to use troops for what troops are best used for.
    Mr. Jordan. Okay. Well, I just want to thank all of you for 
being here today. And, Mr. Pekoske, I thank you for your 
service to our country, the good work you are doing as the 
Administrator at TSA and Acting Deputy Secretary at DHS and for 
what those 349 people are doing down on the border right now. 
We appreciate it. This is a crisis. The fact that the Democrats 
in the Congress will not bring up the supplemental is just--I 
do not get it. And frankly, I hope they do the supplemental 
right and actually address the problem and deal with the 
situation. We got to do all of the above. We got to build the 
border security wall. We have to reform the asylum law. We have 
to change the Flores decision, and we have to pass the 
supplemental to deal with the very real crisis that is playing 
out every single day on our southern border. So, again, I thank 
you all for your work and appreciate you being here.
    I yield back.
    Chairman Cummings. Thank you.
    Mr. Pekoske, let me ask you this. We have to balance all of 
this. Is that right? I mean, you have had a chance now to look 
at this thing from a TSA perspective and the Homeland Security 
perspective. Is that right?
    Mr. Pekoske. Yes, sir.
    Chairman Cummings. If one plane goes down, we got a 
problem.
    Mr. Pekoske. Yes, sir.
    But part of the balance, Mr. Chairman, is to make sure that 
we do not compromise our security standards, and we have not.
    Chairman Cummings. Right.
    And so when you look at the things that Mr. Johnson has 
talked about and Mr. Bumgardner, they talk about possibly 
catastrophic consequences and major problems. You do not see it 
that way?
    Mr. Pekoske. Oh, I see there is significant risk, and I 
appreciate their comments. And we would have same position from 
TSA with our own corporate testing. We are concerned about 
vulnerabilities and want to close them as quickly as we can. 
Sometimes you just cannot close them as quickly as you want to.
    Chairman Cummings. And so the folks that go down there--how 
does that process work--the volunteers, that is? I mean, you 
put out a notice.
    Mr. Pekoske. Yes, sir. We put out a notice, a list of 
volunteers, and then we also give the supervisor of the 
volunteer the opportunity to either approve or disapprove with 
reason why that volunteer can or cannot deploy. And then we 
work a process logistically of providing the slot and the 
transportation down to the southwest border.
    Chairman Cummings. And now going back to your Homeland 
Security position, how are these contracts let to take care of 
these folks? A lot of contracts I assume taking care of these 
children and a lot of people are very concerned about the 
safety of these folks. Can you comment on that?
    Mr. Pekoske. Yes, sir, I can. A key priority of ours and a 
key focus of both the Acting Secretary and me is to make sure 
that we provide as safe a condition as we humanly can.
    Chairman Cummings. Do you think that is happening?
    Mr. Pekoske. I think we are doing everything we can right 
now, given the facilities that we are dealing and the flow that 
we are dealing with. That is why the request for the 
supplemental is so critically important to us, and that is also 
why, sir, that we need to put our resources down there. You 
know, the strength of this Department is that we can put 
capacity to a problem very, very quickly because we have large 
agencies that can support operations like this, just like TSA.
    Chairman Cummings. Now you, in answering the ranking 
member's question--one of his questions--he asked if we change 
asylum laws, would that help, and you said yes. Is that right?
    Mr. Pekoske. Yes, sir.
    Chairman Cummings. And how would that help?
    Mr. Pekoske. Well, it would help us improve the flow. One 
of our key challenges is getting a migrant through all the 
process flows and making sure they have their opportunity to 
present their case and to have it heard by a judge. We would 
like to speed up that process so that we get a definitive 
answer much more quickly.
    Chairman Cummings. Speed up but a fair process.
    Mr. Pekoske. Absolutely, yes, sir.
    Chairman Cummings. And so what else do you see with regard 
to--you know, there are a lot of people that are concerned 
about these folks down there, babies in diapers that have not 
been changed for days, no showers. I just was watching 
something last night where a government agency was telling the 
court that it is okay for a kid not to have a toothbrush or 
soap and then, of course, this whole idea of having children in 
cages and things of that nature. That should concern all of us. 
Would you agree?
    Mr. Pekoske. I would agree completely, sir. And we are 
doing everything we can to make sure we have the right 
supplies.
    But one of the key issues in some of these detention 
facilities is they do not have shower facilities. It is just 
not there. A lot of what we have done over the past several 
months is to bring in what we call soft-sided facilities, which 
basically are not hardened facilities but have soft sides for 
family units and unaccompanied children so that they have a 
better environment within which to process their claims until 
they get off into the next--you know, either get released or 
get off into the next facility that they are going to. So we 
are very concerned about the proper treatment and care of all 
the migrants in our custody.
    And, sir, I will tell you when I was down at the border, I 
could not have been prouder of the DHS men and women who were 
trying their hardest to be able to provide the right level of 
care to all the people they had in their custody. And all the 
volunteers that were down there--and one of the reasons that 
volunteers raised their hand and agree to go is because they 
feel that they are making a difference. Really, that is why it 
is so critically important in my view to get the funding down 
there so we can take care of people. This is called a 
humanitarian crisis on purpose. It is not a trick. It is for 
humanitarian purposes. And then to methodically go about the 
process of fixing our legal structure so that we have more 
orderly crossings of our border.
    Chairman Cummings. Throughout your testimony, you said that 
there has been an increase in the number of apprehensions and 
people trying to cross the border. I know that you all have 
evaluated that. What do you think that is all about?
    Mr. Pekoske. Sir, I think it is all about opportunity. 
People see the opportunity in the United States and want to 
take advantage of it.
    Chairman Cummings. But why now? In other words, you said 
that--I do not want to put words in your mouth, but it sounds 
like you are saying that there was a significant increase. 
First of all, when did you start seeing that increase?
    Mr. Pekoske. We started seeing that increase I think at the 
very end of last calendar year, and then we have seen it 
continue to increase throughout this calendar year. I think one 
of the key reasons, sir, is families and individual children 
know--it is well known because this is largely cartel-driven--
it is well know that if you get across the border into the 
United States, you will most likely be released in the United 
States. Now, you do have a notice to appear, but those notice-
to-appear rates are quite low. So essentially what people are 
seeing is there is an opportunity because they can flow across 
and get in.
    That is why I think it is very important that we speed our 
process along so that we do not have to have a notice to 
appear. We can properly hold people in custody until they can 
appear, but it has to be within a reasonable amount of time.
    Chairman Cummings. You still did not answer my question. 
Why do you think it is happening now?
    Mr. Pekoske. Because I think they view the opportunity to 
get across and to be able to assimilate into the country.
    Chairman Cummings. They did not see it before?
    Mr. Pekoske. They may have, but I do think this is largely 
cartel--this is a money-making enterprise for the cartels too.
    Chairman Cummings. Did you want to say something? Because I 
got several questions.
    Mr. Jordan. I got some more too. So whenever you get a 
chance.
    Chairman Cummings. I want to ask you about the shutdown, 
shifting a little bit here. Mr. Bumgardner, in March of this 
year, you released a report entitled, quote, ``TSA Needs to 
Improve Efforts to Retain, Hire, and Train Its Transportation 
Security Officers.'' When the government shut down from 
December 2018 to January 2019, TSOs were still required to come 
to work, but they were not paid.
    Mr. Bumgardner, your report was released in March of this 
year. Did it evaluate the effects of a shutdown on TSA's 
transportation security officer work force, and if so, what did 
you find?
    Mr. Bumgardner. No. It did not--the field work on that job 
had been done. We did notice during the shutdown that the 
number of sick-outs went out. We were very concerned about 
that, and we were considering going in and conducting work on 
that when the shutdown ended.
    Fortunately--and I think the Administrator would agree--we 
were right in between spring break and right after Christmas so 
the long lines were not terribly bad at that point in time, but 
with the increased number of sick-outs, we were concerned about 
traveler safety. No question.
    Chairman Cummings. Did you want to say something?
    Mr. Pekoske. Yes, sir. I would just clarify that while we 
had more officers calling out, they were not necessarily sick-
outs. We had a number of officers that just could not get to 
work. They could not afford child care. It was a tradeoff 
between do I eat tonight or do I pay the money to get to work. 
And what we saw at the very end of the shutdown was we still 
had about 92-93 percent of the officers coming to work every 
single day, which I think is remarkable given what they get 
paid.
    Chairman Cummings. Did any of the TSA employees have to 
resort to using food stamps and food banks and other aid 
services to take care of their families?
    Mr. Pekoske. Yes, sir, they did. And we had a number of 
communities and airports around the country that brought food 
in to help them out. We had officers that were more senior, 
made more money, brought things in to help their fellow 
officers out. So it was a significant show of support and show 
of appreciation for the value that they provide by the American 
public.
    Chairman Cummings. What effect did this have on the 
screener performance, if any?
    Mr. Pekoske. We saw no change in screener performance. In 
fact, I would submit, sir, that screener might have been higher 
because just think of this dynamic. You have got more leaders 
in the screener work force actually doing screening. So you 
have got more seasoned folks doing screening. I think that, by 
and large, is always better. Additionally, when you are being 
positively reinforced by just about every passenger that comes 
through, hey, thanks for coming to work, I really appreciate 
what you all are doing, I know it is a difficult circumstance, 
that is motivational.
    Finally, what I saw, as I traveled around to airports were 
officers helping officers out. It brought the organization 
together like I do not think we have seen before.
    Chairman Cummings. Are there TSA employees who face long-
term financial consequences because of the shutdown?
    Mr. Pekoske. I am not aware of anybody that has long-term 
financial consequences. I am not saying there are not any folks 
in that category, but we did pay everyone for the--you know, no 
one lost pay as a result of the shutdown.
    The other thing that I was able to do because of the 
flexibility you have provided in law is because I have a two-
year appropriation, I could use money from last Fiscal Year to 
pay people in Fiscal Year 2019. And we exercised that authority 
to the maximum extent we could. And really, it is to the great 
credit of the Office of Management and Budget that helped us 
execute on that. So I was able to put some bonus money out 
there to really recognize the extraordinary circumstance that 
people were dealing with and to thank them for what they were 
doing.
    Chairman Cummings. And how does the attrition rate for TSOs 
during the first half of this year compare to the rates seen in 
previous years? And were there any increases in attrition seen 
in the months after the shutdown?
    Mr. Pekoske. So we are just now looking at that data 
because we really had to catch up on all the personnel 
transactions that were not able to be processed during the 
shutdown. But we are seeing a slight increase in attrition. But 
I do not know what that is specifically attributed to, however. 
You know, as the economy gets better, our wage rates do not 
change commensurate with the economy's growth.
    Mr. Jordan?
    Mr. Jordan. Thank you, Mr. Chairman.
    Senator Graham has proposed that you apply for asylum 
before you get to the border in the country you are coming from 
or in Mexico. Do you support Senator Graham's legislation?
    Mr. Pekoske. I do.
    Mr. Jordan. It makes a lot of sense to me.
    How about this simple thing that many of us propose as 
well: put more judges on the border? You would support that as 
well.
    Mr. Pekoske. 100 percent. I think we need to vastly 
increase that cycle time.
    Mr. Jordan. So that they can be there and, as you said 
earlier, you can keep families together but keep them until 
there is some kind of due process and adjudication process with 
the judge overseeing all of that and making a decision.
    Mr. Pekoske. Yes, sir.
    Mr. Jordan. The chairman asked about the increase that we 
have seen. I would argue it is a couple things. One is all the 
incentives are there to come. You come, you do the terrible 
things that we talked about that we are seeing happened where 
children are used as the way to get into the country, knowing 
you are going to get released. So all the incentives are there 
for them to come.
    But it might also be--and I am interested in your 
thoughts--that maybe the bad guys, the cartels understand that 
this administration is actually serious about ultimately 
addressing the problem and fixing it. Could that be part of why 
you see the increase as well? Because they know a solution is 
coming. I would love for us to get there sooner rather than 
later, and frankly, if we get some help from the other side, 
maybe we could. But might that also be a reason for the 
dramatic increase we have seen in the last several months?
    Mr. Pekoske. Yes, sir. I think that is entirely logical. 
You know, the cartels are looking at opportunity too. They know 
they have perhaps a closing window of opportunity and just to 
drive it faster.
    The other thing that I understand from my time down at the 
border is the cartels are now making as money in human 
trafficking as they are in drug trafficking. So for them, this 
has been an economic incentive for sure.
    Mr. Jordan. And the solution is as simple--I think you have 
said this already, Director, and I appreciate it--but a border 
security wall, fixing the asylum law, fixing Flores. That is 
the solution.
    Mr. Pekoske. Yes, sir.
    Mr. Jordan. Coupled with Senator Graham's legislation which 
says apply before you get to the border and more judges so we 
can keep families together and actually adjudicate it while 
they are there.
    Mr. Pekoske. Yes, sir. And I would add to that a strong 
support of the Government of Mexico in ensuring that folks that 
cross their border are stopped at their border before they come 
to ours.
    Mr. Jordan. Yes. And to me, this is all common sense. 
Everything we just discussed right there, everything you agreed 
to is as common sense as it gets. I think the vast majority of 
people across this country understand that. It seems to me the 
only ones who do not--the only ones who do not--are Democrats 
in Congress. And that is the fundamental problem. That is the 
fundamental problem. They do not get it so much so that they 
have six weeks on just to deal with the humanitarian crisis 
just to help these people in a short-term way--they will not 
even pass that. So that is the problem here.
    Again, I thank you for your work and for you coming here 
and stating the truth in such a straightforward and plain way.
    I yield back.
    Chairman Cummings. Thank you very much.
    I want to thank our witnesses for being here today.
    I ask unanimous consent to enter into the record a letter 
from the American Federation of Government Employees. Without 
objection, so ordered.
    Chairman Cummings. I also wish to enter into the record a 
``New York Times'' piece dated June 24th, 2019 entitled ``There 
is No Excuse for Mistreating Children at the Border.'' Without 
objection, so ordered.
    Chairman Cummings. Again, I want to thank all of you for 
being here.
    I think that there is a situation here where there has to 
be balance. We have got to look out for the flying public. At 
the same time, I can understand concerns with the border. I 
think that many members on both sides, I assume, are concerned 
very much not only about the border and hopefully some kind of 
reasonable legislation with regard to immigration reform--
comprehensive, that is. But also concerned about the way our 
children are treated--these children are treated. I heard you, 
Mr. Pekoske, but I can tell you that from what I am seeing and 
hearing, the way these children are treated does not reflect 
American values. And that is very unfortunate. And hopefully, 
we will get to some type of resolution. We can go in circles 
and circles. I am convinced that we can do more than one thing 
at one time, but clearly, like I said, if one plane goes down, 
we are in trouble.
    And I want to thank you, Mr. Johnson, and you, Mr. 
Bumgardner. We are just going to have to keep working at this 
because I think there is an urgency I think in both places. The 
flying public certainly--I mean, the reports that I have seen 
with regard to our testing gives me a lot of concern, and I am 
glad you did not get into the numbers because I think that that 
is the type of information that does not necessarily need to be 
out there in the public. But they concern me and they should 
concern all of us. And I think that concern is heightened when 
we learned that there were recommendations that, for whatever 
reasons, have not been addressed as fast as we would like.
    And so we will continue to look at this issue and look at 
the issues that have been raised here today overall.
    But, again, I want to thank you.
    And let me just say, without objection, all members will 
have five legislative days within which to submit additional 
written questions for the witnesses to the chair, which will be 
forwarded to the witnesses for their response. And I would 
simply ask that our witnesses promptly respond as fast as you 
possibly can.
    With that, this hearing is adjourned.
    [*Letter not submitted.]
    [Whereupon, at 12:30 p.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
